<html>
<title> - U.S. STRATEGY TOWARD PAKISTAN</title>
<body><pre>[Senate Hearing 111-139]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-139
 
                     U.S. STRATEGY TOWARD PAKISTAN

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 12, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                  U.S. GOVERNMENT PRINTING OFFICE
53-160                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Holbrooke, Hon. Richard, Special Representative for Afghanistan 
  and Pakistan, Department of State, Washington, DC..............     6
    Prepared statement...........................................     8
    Responses to questions submitted for the record by:
        Senator John F. Kerry....................................    35
        Senator Richard G. Lugar.................................    41
        Senator Robert P. Casey, Jr..............................    49
        Senator Jim DeMint.......................................    51
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4

                                 (iii)

  


                     U.S. STRATEGY TOWARD PAKISTAN

                              ----------                              


                         TUESDAY, MAY 12, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:20 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Dodd, Feingold, Menendez, Casey, 
Webb, Shaheen, Kaufman, Gillibrand, Lugar, Corker, Isakson, 
Risch, DeMint, and Wicker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. Good morning. This hearing will come to 
order.
    We were going to have the business meeting as rapidly as 
possible at the beginning, but until we have requisite 10 
Senators, we are not able to do that. So, what we'll do is 
start the hearing component, and as soon as we have 10 Senators 
here, we'll do the business-meeting component and then move on.
    And, Ambassador Holbrooke, thank you for your willingness 
to indulge us and allow us to do that.
    With its nuclear arsenal, its terrorist safe havens, 
Taliban sanctuaries, and a growing insurgency, Pakistan has 
emerged as one of the most difficult foreign policy challenges 
that we face. We're fortunate to have with us today to share 
his views one of America's most accomplished diplomats, 
Ambassador Richard Holbrooke, who will share with us the 
results of the now-two trilateral meetings that have taken 
place, as well as his own travels to the region and efforts to 
revitalize America policy in the region.
    Last Thursday, this committee hosted Pakistani President 
Asif Zardari along with Afghan President Karzai for a working 
lunch. And the trilateral meetings that were held in Washington 
last week I think provided the basis of increased cooperation 
of some progress.
    For most of the past 8 years, just getting Pakistani and 
Afghan officials in the same room required, frankly, a 
herculean effort. Committee members during this luncheon asked 
some very tough questions. It was a very frank exchange; I must 
say, a unique exchange, in my experience at luncheons with two 
Presidents of countries with different interests, and they were 
both very gracious in taking those questions and in providing 
the committee and the guests who were there an important 
opportunity to be able to really examine American policy and to 
hear the leaders of those countries express their views.
    We're not looking for perfection, but we do have a need to 
make progress and to redefine some aspects of the policy, and 
we need to work together--Congress, the administration, the 
Pakistanis, the Afghans. And the stakes are really much too 
high for anything less than our maximum cooperative effort.
    Pakistan today, frankly, has the potential either to be 
crippled by the Taliban or to serve as a bulwark against 
everything that the Taliban represents. For many of us in 
Congress and the administration, recent events have only 
reaffirmed our belief that we need a bold new strategy. The 
Enhanced Partnership with Pakistan Act, which I've introduced 
with Senator Lugar, is the centerpiece of a new approach 
designed to redefine, not only America's policy toward 
Pakistan, but also our relations with the Pakistani people. I'm 
pleased that the President has asked Congress to pass it.
    Ultimately, it will be the Pakistani people, not Americans, 
who will determine their nation's future. The good news is 
that, for all of its current troubles, Pakistan remains a 
nation whose 170 million citizens are overwhelmingly moderate, 
whose own soldiers and police have died fighting terrorism and 
insurgency, a country that has committed itself to a very 
difficult democratic transition, even at a moment of enormous 
strain.
    I look forward to hearing Ambassador Holbrooke's thoughts 
on how we can empower those Pakistanis fighting to steer the 
world's second largest Muslim country on to a path of 
moderation, stability, and regional cooperation.
    Since President Obama called on Congress to pass a Pakistan 
aid bill, the dangers of inaction have risen almost by the day. 
The government has struck an ill-advised deal that effectively 
surrendered the Swat Valley to the Taliban. Predictably, this 
emboldened the Taliban to extend their reach ever closer to the 
country's heartland. In recent days, we've seen encouraging 
signs that Pakistan's Army is finally taking the fight to the 
enemy, but much remains to be done.
    Even as we help Pakistan's Government to respond to an 
acute crisis, we also need to mend a broken relationship with 
the Pakistani people. For decades, America sought Pakistani 
cooperation through military aid, while paying scant attention 
to the wishes and needs of the population itself. This 
arrangement is rapidly disintegrating. Today, an alarming 
number of Pakistanis actually view America as a greater threat 
than al-Qaeda.
    Until this changes, there is, frankly, little chance of 
ending tolerance for terrorist groups or for persuading any 
Pakistani Government to devote the political capital necessary 
to deny such groups sanctuary and covert material support.
    I've seen, firsthand, how American aid can, in fact, have a 
transformative effect. After the 2005 Kashmir earthquake, 
America spent nearly $1 billion on relief efforts. I can 
personally attest that the sight of American service men and 
women saving the lives of Pakistani citizens in places like 
Mansehra and Muzaffarabad was invaluable in changing 
perceptions of America. Now we have to recreate this success on 
a broader scale.
    The Enhanced Partnership with Pakistan Act is an important 
first step. On the economic side, it triples nonmilitary aid to 
$1.5 billion annually for 5 years and urges an additional 5 
years of funding. These funds will build schools, roads, 
clinics; in other words, undertake those kinds of projects on a 
regular basis to achieve the kind of connection with the 
Pakistani people that we did in the course of the earthquake 
relief.
    Of course our aid to Pakistan aims to achieve more than 
just good deeds. It will empower the civilian government to 
show that it can deliver its citizens a better life, but at the 
center of any strategy--and I'm sure Ambassador Holbrooke will 
underscore this--at the center of any strategy is the effort by 
the Government of Pakistan itself to build its own relationship 
with its own people.
    To do this right, we believe that we have to make a long-
term commitment. Most Pakistani's feel that America has used 
and abandoned their country in the past; most notably, after 
the jihad against the Soviets in Afghanistan. It is this 
history and this fear that causes Pakistan and many Pakistanis 
to hedge their bets. If we ever expect Pakistan to break 
decisively with the Taliban and other extremist groups, then 
they need to know that we're not merely momentary friends.
    On the security side--and they also need to know, I might 
add, unlike the last 8 years, that we are not principally 
focused on a relationship with the leader of the country, as 
opposed to the people of the country--on the security side, the 
bill places reasonable conditions on military aid. It asks the 
administration to certify that Pakistan's Army and spy services 
have been partners in the struggle against al-Qaeda, the 
Taliban, and their affiliates, and also partners in the effort 
to solidify democratic governance and the rules of law in 
Pakistan.
    As important as the economic and military components of our 
aid to Pakistan are, it is also important how they fit 
together. An unequivocal commitment to the Pakistan people will 
enable us to calibrate our military assistance more 
effectively. For too long, the Pakistani military has felt that 
we were simply bluffing when we threatened to cut funding for a 
particular weapon system or an expensive piece of hardware. And 
up to now, they have been right. But, if our economic aid is 
significantly larger--i.e., tripled, as Senator Lugar and I 
have proposed--we will finally be able to make these choices on 
the basis of both our national interests rather than the 
institutional interests of the Pakistani security forces.
    Even as we take bold steps, we should realize that our aid 
package to Pakistan is not a silver bullet. This bill aims to 
increase our leverage significantly, but we need to be 
realistic about what we can accomplish. Americans can influence 
events in Pakistan, but we cannot, and should not, decide them. 
Ultimately, the true decisionmakers are the people of Pakistan 
and the leaders of Pakistan, and that's the way it will be, 
going forward.
    Ask a resident, not even an elderly one, of Lahore or 
Karachi or Peshawar, what these places used to be like, and you 
will hear reveries of a time that now seems a world away. We 
need to help Pakistan once again become a nation of stability, 
security, and prosperity, enjoying peace at home and abroad, a 
nation, in short, that older Pakistanis remember from their 
childhoods. It's this nation that most Pakistanis desperately 
want to reclaim.
    I'm eager to hear Ambassador Holbrooke's thoughts on how we 
encourage the Pakistan people to choose a peaceful, stable 
future and offer them the best that we can offer, which is a 
helping hand in the effort to get there.
    With Senator Lugar's indulgence, I'd now ask that we open 
the business meeting portion of the morning.
    [Recess.]
    The Chairman. Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
join you in welcoming Ambassador Holbrooke. We're grateful that 
he's come today to share his insights on Pakistan and the 
Kerry-Lugar legislation.
    The Enhanced Partnership with Pakistan Act of 2009 sustains 
the objectives outlined in the bill I introduced last year with 
then-Senator Biden. Senator Kerry and I have listened carefully 
to those conducting a strategic review of United States policy 
in South Asia, and we've tried to ensure consistency with the 
President's goals.
    This hearing gives members an opportunity to review the 
situation in Pakistan, as well as United States policy options 
and the resources that may be required to achieve them.
    The United States has an intense strategic interest in 
Pakistan and the surrounding region. The U.S. National 
Intelligence Estimate last year painted a bleak picture of the 
converging crises in Pakistan. A growing al-Qaeda sanctuary and 
expanding Taliban insurgency, political brinksmanship, a 
failing economy, are intensifying turmoil and violence in that 
country, and these circumstances are a threat to Pakistan, the 
region, and the United States.
    Our legislation is intended to take advantage of the 
opportunity for revitalizing our relationship through greater 
diplomatic engagement, as well as a commitment to economic and 
political development. It calls for significant increases in 
United States and international economic support alongside 
relevant military assistance linked to Pakistani performance 
against terrorism. We seek strong cooperation with the Pakistan 
Government, the continued improvement in Indo-Pak relations, 
the secure management of Pakistan's nuclear program, and the 
development of Afghanistan as a free and stable country 
governed by the rule of law.
    While our bill envisions sustained economic and political 
cooperation with Pakistan, it is not a blank check. The bill 
subjects our security assistance to a certification that the 
Pakistani Govern-
ment is meeting--or, is using the money for its intended 
purpose; namely, to combat the Taliban and al-Qaeda.
    The bill also calls for tangible progress in governance, 
including an independent judiciary, greater accountability by 
the central government, respect for human rights, and civilian 
control over the military and intelligence agencies.
    Our bill also contains provisions to help ensure that 
development funds are spent effectively and efficiently. It 
stipulates that the administration must provide Congress with a 
comprehensive assistance strategy before additional assistance 
is made available. And once money begins to flow, the 
administration must report, every 6 months, on how the money is 
spent and what impact it's having.
    In addition, the bill provides that, before the 
administration spends more than half of the $1.5 billion 
authorized in any fiscal year, it must certify that the 
assistance provided to that date is making substantial progress 
toward the principal objectives contained in the 
administration's strategy report.
    We also have asked the Government Accountability Office to 
review, annually, the administration's progress on stated 
goals, and we authorize $20 million each year for audits and 
programs, reviews by the inspector general of the State 
Department, USAID, and other relevant agencies, in addition. 
The United States should make clear to the people of Pakistan 
that our interests are focused, not on supporting a particular 
leader or party, but on democracy, pluralism, stability, the 
fight against violence and extremism. These are values 
supported by a large majority of the Pakistani people.
    As I noted when we introduced the Kerry-Lugar bill last 
week, any United States policy related to Pakistan will require 
the cooperation and active support of both the executive and 
legislative branches of our Government. Senator Kerry and I are 
trying to play a constructive role in facilitating a consensus 
position between branches that will undergird the rational 
approach to the region with the best chances of success. With 
this in mind, it is vital the administration's message on 
Pakistan be clear and consistent. The administration also must 
continue to actively consult with Congress on elements of 
strategy, not simply lobby us for funds.
    The administration has conducted some bipartisan outreach 
on this topic already, and I encourage the President to build 
on this so we have a truly bipartisan consensus as we grapple 
with the spectrum of security challenges the region presents.
    I look forward to working with President Obama's 
administration and congressional colleagues on a policy toward 
Pakistan that builds our relationship with that nation and 
protects vital United States. interests.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar, and thank 
you for your partnership in this effort to try to weave 
together a solid policy.
    Ambassador Holbrooke, thank you very much for joining us 
today, and, I think, more particularly, thank you for taking on 
this difficult task. It's complicated, and we're very 
appreciative that you're bringing your talents to bear here.
    If you could perhaps summarize testimony, and then we can 
maximize the amount of time Senators will have to ask 
questions, and we'd appreciate it. Your full testimony will be 
placed in the record as if read in full.
    Let me just mention one thing, to all my colleagues. On the 
issue that I know is of concern to everybody on nuclear 
weapons, that is the one topic we're going to have to take up 
in a classified session. So, those questions, if I could ask 
you to hold them, we will schedule a classified session with 
appropriate folks in order to talk about that.
    Ambassador.

STATEMENT OF HON. RICHARD HOLBROOKE, SPECIAL REPRESENTATIVE FOR 
 AFGHANISTAN AND PAKISTAN, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Holbrooke. Thank you, Mr. Chairman.
    It is an enormous personal honor and privilege to testify 
before you for the first time as chairman of this committee. 
You are the seventh chairman of the Senate Foreign Relations 
Committee I've had the privilege of testifying before since I 
was first confirmed in this very room by Senator John Sparkman 
in 1977.
    Your leadership and that of Senator Lugar is absolutely 
critical in the highly important issue we're here to discuss 
today.
    I would like to submit my statement for the record and make 
a few brief comments.
    And I do want to start with the lunch you referred to at 
the beginning. I've been to a lot of lunches up here for 
foreign leaders over the last 30 years, but I've never seen one 
like that. That was really a lunch that moved policy. Neither 
man had ever done that before. By pulling the two men 
together--President Zardari and President Karzai--in a serious 
forum in which they were required to answer tough, tough 
questions, tougher, in many ways, than those asked at the other 
end of Pennsylvania Avenue in the State Department, you 
encouraged them in the very goal of the trilateral summit, 
which is to work with each other.
    It is axiomatic that success in Afghanistan, however you 
define it, is not possible if Pakistan's western areas remain a 
sanctuary for rest, recuperation, recruitment, and then 
attacking Afghanistan again. And cooperation between Islamabad 
and Kabul is notoriously bad. That goes back into history. And 
it's an enormously complicated problem. And, by holding that 
lunch and simultaneously make them talk to each other in front 
of 27 Senators, and also to hear your views, was, in my 
experience on the Hill, unprecedented and unique. And I thank 
you and Senator Lugar and your colleagues for it.
    That lunch was the last event of a very effective week, and 
I wanted to give you a sense, beyond my written statement, of 
what we were trying to do and where we think we are.
    This was not just a photo-op, it was not just one meeting 
between two Presidents. As you saw in the room, you had 
ministers in that room from both countries. Most notably, three 
of the matched pairs--the Ministers of Agriculture, the 
Ministers of Interior, and the Ministers of Finance--had never 
met each other. So, we were playing the kind of leadership role 
that I think is what the United States, both branches, should 
do.
    As a result of those meetings--we've agreed to hold four 
sets of meetings like this a year, and this was the second, but 
the first at the chief-of-state level--as a result of those 
meetings, we have set up working groups and task forces on a 
whole range of issues, stretching from water resource 
management, an issue of enormous political sensitivity, of 
course, to negotiating the trade transit agreement between 
Afghanistan and Pakistan--a team of ours is on its way to 
Islamabad right now to push those negotiations--to perhaps most 
the difficult of all issues, intelligence cooperation. You saw, 
firsthand, in the room, when you called on General Pasha, the 
head of ISA--ISI--the immense complexity in that area. So, we 
think that this trilateral process will improve our chances of 
achieving our objectives.
    But, I would not want to mislead you. What happens in 
Washington is only as good as its reactivation on the ground in 
the field. We can sit here and pledge and shake hands and sign 
agreements, but it only matters if it happens on the ground.
    The situation in Pakistan is extremely difficult. And I was 
pleased to see, Mr. Chairman, that you began by saying, and I 
quote your words because I hope to use them repeatedly, ``We're 
not looking for perfection.'' You're not going to find any in 
our policies in this part of the world. This is one tough 
issue.
    For those of us--and I see at least two people on this 
podium who served in another war in a distant land, in 
another--long ago--this is as tough as anything I've ever seen 
before, anything I've ever worked on.
    We are in Afghanistan and Pakistan because of 9/11, because
al-Qaeda and its allies are camped out in western Pakistan and 
have pledged and promised and predicted and threatened to do it 
again to us and other countries. These are the men who killed 
Benazir, who did Mumbai, who attacked the cricket team in 
Lahore, who attacked the United States. They are--the epicenter 
of this area is in western Pakistan.
    If it were not for that fact, Mr. Chairman, we would not be 
sitting here today asking--supporting your very visionary 
proposal to triple aid, nonmilitary aid, and we would not be 
having this kind of colloquy. Pakistan would still be a huge 
issue, for many other reasons, including the nuclear weapons. 
Pakistan would also be an immensely important country because 
of its size and its role in the Muslim world. But, the reason 
we consider it one of, if not the, highest strategic priority 
of this administration is because they directly threaten us.
    People ask me if this is another Vietnam, and I would say, 
quite frankly to you, that structurally there are many 
similarities, including the sanctuaries, including the problems 
of governance, including problems of corruption, including 
problems of inefficiencies and inadequacies in strategy, 
including sometimes our own strategies. That's part of the job 
I was given by the President and Secretary of State, is to work 
on the civilian side of that problem.
    But, I want to underscore the core difference between 
Vietnam and Afghanistan-Pakistan. And it is 9/11. There was no 
threat from the Vietcong and the North Vietnamese Army to the 
homeland of the United States. They had no interest, no 
intentions, and no capabilities. Our enemies now include people 
that do--and that's why we're here today--in this historically 
troubled area.
    The bill you have presented corrects a longstanding 
imbalance in our economic assistance. It was too heavily 
weighted to the wrong issues, the wrong areas, and too heavily 
military. But, I know there are military components to this 
that you wish to discuss.
    With that, Mr. Chairman, I will stop and be honored to 
respond to your questions and say, once again, because there 
are more friends of mine on this committee than any other in 
the Congress, how pleased I am to appear before you.
    Thank you.
    [The prepared statement of Ambassador Holbrooke follows:]

Prepared Statement of Hon. Richard C. Holbrooke, Special Representative 
   for Afghanistan and Pakistan, Department of State, Washington, DC

    Mr. Chairman, Ranking Member Lugar, and distinguished members of 
the committee: Thank you, Mr. Chairman. It is a great honor to appear 
before your committee again.
    When I last testified before you, it was as a private citizen 
offering personal views on Afghanistan and Pakistan. Today, I appear 
before you as the Special Representative for Afghanistan and Pakistan. 
I deeply appreciate the President's and Secretary Clinton's confidence 
in appointing me to this position.
    A stable, secure, democratic Pakistan is vital to U.S. national 
security interests. We must support and strengthen the democratic 
Government of Pakistan in order to eliminate once and for all the 
extremist threat from al-Qaeda and affiliated terrorist groups.
    Yet relations between the United States and Pakistan have been 
inconsistent over the years. In Pakistan, many believe that we are not 
a reliable long-term partner and that we will abandon them after 
achieving our counterterrorism objectives. Many in the United States 
question the dedication of some elements of the Pakistani Government to 
ending safe haven for terrorists on Pakistani soil. But our engagement 
has to be aimed at putting our relationship on a better long-term 
footing.
    To assure a strong partnership in the fight against extremists, 
constancy and consistency must be the hallmarks of our engagement with 
Pakistan. This engagement must be conducted in a way that respects and 
enhances democratic civilian authority while also engaging the 
Pakistani people in our commitment to help them pursue a prosperous 
economy, a stronger democracy, and a vibrant civil society.

                        ADMINISTRATION STRATEGY

    In March, President Obama announced the new U.S. strategy for 
Afghanistan and Pakistan which reflected unprecedented input from both 
governments. The President's core strategic goal is to disrupt, 
dismantle, and eventually defeat al-Qaeda and to eliminate the safe 
havens in Afghanistan and Pakistan. The President's strategy makes 
clear the importance of Pakistan's future and stability to the United 
States and the rest of the world, and the need for increased security, 
governance, and development assistance to Pakistan.

                         TRILATERAL ENGAGEMENT

    Last week in Washington, we completed the second round United 
States-Afghanistan-Pakistan trilateral engagement, this time at the 
summit level. Through this trilateral mechanism, we have advanced 
unprecedented cooperation between Afghanistan and Pakistan. All parties 
involved reaffirmed their shared commitment to combat the spread of 
terrorism and extremism and underscored the priority placed on this. 
United States Cabinet members also met with their Pakistani and Afghan 
counterparts in a broad-based interagency approach to explore new areas 
of cooperation on foreign policy, economic policy, agriculture, police 
and prison reform, and intelligence. In five high-level breakout 
consultation sessions, officials from the State Department, FBI, 
Department of Agriculture, USAID, Defense Department, National Security 
Council, intelligence community, Treasury, Commerce, and USTR met with 
their Afghan and Pakistani counterparts. Through these substantive 
discussions, the following practical and concrete initiatives were 
delivered.

  <bullet> Afghanistan and Pakistan signed a memorandum of 
        understanding committing their countries to achieving a transit 
        trade agreement by the end of this year.
  <bullet> Afghanistan and Pakistan agreed to continue the cross-border 
        Jirga process to be held after the Afghan elections.
  <bullet> Afghanistan and Pakistan committed to opening two Border 
        Coordination Centers in 2009, one in Afghanistan and the other 
        in Pakistan.
  <bullet> The United States, Afghanistan, and Pakistan plan to 
        increase cooperation on agricultural development and research, 
        as well as launching a Regional Infrastructure and Trade 
        Development initiative to accelerate needed infrastructure 
        development.
  <bullet> Afghanistan and Pakistan plan to pursue, with U.S. support, 
        a Joint Action Plan outlining areas of common concern on issues 
        of law enforcement, border security and management, and rule of 
        law.
  <bullet> The next Trilateral Consultations is planned to take place 
        this fall.

                        INTERNATIONAL ENGAGEMENT

    A critical objective of the administration's new strategy is to 
forge an international consensus to support Pakistan. We will involve 
the international community to actively assist in addressing security, 
governance, and development goals in Pakistan.
    We have already made progress.

  <bullet> At the April 3-4 NATO Summit, allied leaders agreed to build 
        a broader political and practical relationship between NATO and 
        Pakistan.
  <bullet> On April 17, the World Bank and the Japanese Government 
        cochaired a successful Pakistan Donors' Conference in Tokyo 
        where the international community pledged more than $5 billion 
        in new support, well above the $4 billion requirement 
        identified by the International Monetary Fund.
  <bullet> We are also urging allies to work closely with us both 
        bilaterally and through the Friends of Democratic Pakistan to 
        coordinate development assistance. The Friends held a 
        successful ministerial meeting in parallel with the Tokyo 
        Donors Conference, at which Pakistan's international partners 
        affirmed their political support for the democratically elected 
        government.

        STRENGTHENING PAKISTANI CIVILIAN AND GOVERNMENT CAPACITY

    A key aspect to the new strategy is to put more attention and 
resources toward Pakistan's economic and governance challenges. By 
increasing economic and educational opportunities, expanding the reach 
of quality health care, reinforcing human rights--particularly women's 
rights--and empowering civil society, life for millions of average 
Pakistanis will improve. Toward this end, the President has voiced his 
support for the congressional efforts to increase nonmilitary 
assistance to Pakistan to $1.5 billion per year for 5 years. 
Introduction of bills in both Houses demonstrates Congress's support of 
our long-term commitment to helping the Pakistani people.
    It is vital that we devote some of these resources to target the 
economic and social roots of extremism in western Pakistan with more 
economic aid. There have often been rebellions in that area 
historically, but this is the first time they have been tied to an 
international terror movement. Our assistance should support Pakistani 
efforts to ``hold and build'' in western Pakistan as part of its 
counterinsurgency efforts so extremists do not return to fill the 
vacuum once military operations have ended.
    We must also do our part to enhance bilateral and regional trade 
possibilities by implementing Reconstruction Opportunity Zones (ROZs) 
and encouraging foreign investment in vital sectors, such as energy. 
The administration supports congressional passage of ROZ legislation as 
a key way to boost private investment and sustainable economic 
development in targeted areas of Afghanistan and border areas of 
Pakistan. I ask for your support in expediting this crucial 
legislation.

                  BUILDING COUNTERINSURGENCY CAPACITY

    Successfully shutting down the Pakistani safe haven for extremists 
will require consistent and intensive strategic engagement with 
Pakistan's civilian and military leadership. It is vital to strengthen 
our efforts to both develop and enable Pakistani security forces--both 
the military and law enforcement--so they are capable of carrying out 
sustained counterinsurgency operations. The Pakistani Army has 
traditionally been arrayed in a conventional deployment in the east, 
against India. We must work with Pakistan so that it has the resources 
and training to recalibrate from its current conventional threat 
posture to one that addresses the insurgent threat on its Western 
frontier.

                        STRATEGIC COMMUNICATIONS

    We are developing a strategic communications plan to counter the 
terror information campaign, based in part on a strategy that proved 
successful in Iraq. This is an area that has been woefully under-
resourced. The strategic communications plan--including electronic 
media, telecom, and radio--will include options on how best to counter 
the propaganda that is key to the insurgency's terror campaign.

           SUPPORTING LEGISLATION FOR ASSISTANCE TO PAKISTAN

    Security assistance for Pakistan has to show results. In the 
President's words, ``We must focus our military assistance on the 
tools, training and support that Pakistan needs to root out the 
terrorists'' but ``we will not, and cannot provide a blank check.'' 
Pakistan must demonstrate its commitment to rooting out al-Qaeda and 
the violent extremists within its borders.
    The administration intends to implement measures of performance in 
its economic, social, and military assistance to Pakistan. We must 
ensure, however, that such tools do not impede the effectiveness of our 
assistance or play to the ``trust deficit'' that plagues our bilateral 
relationship and promotes distrust among the Pakistani people. Any 
legislation should engender the greatest level of cooperation by 
winning the trust of our civilian and military partners in Pakistan.
    The administration is committed to working closely with the members 
of this committee, and Congress, to ensure that together we are able to 
provide the resources necessary to carry out our new strategy in 
Pakistan.
    All of our efforts in Pakistan are geared toward creating the 
vibrant, modern, and democratic state that Pakistanis desire and U.S. 
policy envisions as a partner in advancing stability and development in 
a key region of the world.
    Thank you for the opportunity to appear before you today.

    The Chairman. Well, thank you very much, Ambassador 
Holbrooke. Again, we're delighted to have you here, and 
delighted you're tackling this, complicated as it is. And I 
agree with you that it's tough.
    Why don't we try to sort of establish a baseline, here, 
with respect to what we're dealing with. A lot of the news 
stories lately have been implying Pakistan is on the brink of 
becoming a failed state, or in some of the news reporting you 
get a sense that there may be an imminent takeover, so forth, 
by the Taliban. My personal view is that both of those 
judgments are overblown, that it is not about to be a failed 
state and they're not about to take over the whole country. 
Nevertheless, they have made very significant gains, and if the 
situation remains the way it has been for these last years, 
they will continue to.
    That said, would you share with us your view about, sort 
of, What are we looking at here, in terms of the governance 
capacity within Pakistan and the state of the insurgency 
itself? Or, insurgencies, because there are criminal efforts, 
there are various indigenous-focused insurgencies, and then, of 
course, Lashkar-e-Taiba, which took its effort to Mumbai. 
Perhaps you could just sort of lay the baseline for the 
committee, if you would.
    Ambassador Holbrooke. First of all, Mr. Chairman, I agree 
with you, Pakistan is not a failed state. But, from its birth, 
Pakistan has been under pressure from--based on the ethnic 
diversity of its nation and because, although everybody's 
Muslim, they have very strong identities with their--Pashtun, 
Punjabi, Sindh, and so on. And so, I share your view.
    Your question addresses the current situation on the ground 
politically? Is that what you'd like me to address?
    The Chairman. Politically and the insurgency----
    Ambassador Holbrooke. OK.
    The Chairman [continuing]. Militarily.
    Ambassador Holbrooke. Politically, I think the facts are 
pretty well known. We have a democratically elected government, 
after a decade of military rule which was excessively 
supported, in my view, by the United States. We need, in my 
view, to strengthen the democracy in Pakistan. That should be 
our core objective.
    Another military coup, another military takeover, another 
military intervention would be very much against the interests 
of the United States, and, above all, the people of Pakistan. 
And every public opinion poll shows overwhelming desire for 
democracy to succeed, but when you drill down to the next 
level, you come up with an anomaly, which is a sharp division 
between the two leading political forces, the PPP of President 
Zardari, ruling party, and the party of Nawaz Sharif and his 
brother, the chief minister in the Punjab. They had formed a 
government together, as we all know, in the period that led to 
the removal of Musharraf, and then they split apart.
    I am very pleased to bring to your attention again a fact 
which got relatively little attention in the United States 
until recently, and that was that, last week, the week before 
last, in the Punjab, the two parties formed a coalition 
government. Punjab's 60 percent of the population. I think 
that's a big step forward toward the kind of national unity 
that's wanted.
    I would also draw your attention to the extremely important 
statements of Prime Minister Gilani, who, in the last few days, 
made a major speech calling for an all-parties conference on 
national security, and other leading political figures from 
other parties have also endorsed that.
    So, before we throw up our hands and assume that Pakistan 
is, ``falling apart,'' let's recognize that, with a lot of 
encouragement from their friends, including this committee and 
other people who were at the lunch last week, you can see the 
signs that Pakistan's political effort is knitting together 
somewhat, compared to where it was a few weeks ago.
    On the insurgency issues, we all know that your 
characterization of the Swat deal is one that I also made 
publicly, so I'm completely on the same wavelength as you. The 
Pakistani people supported that deal very strongly; something 
like 74 percent of the population, in a poll taken by the IRI, 
the International Republican Institute, and published this 
morning--I don't have the exact figure, but I think that poll 
is well worth putting into your record--something like 74 
percent of the IRI respondents supported that poll when it was 
taken. But, the Taliban, as you predicted, as many of your 
colleagues predicted, as we predicted--the Taliban violated it, 
used it as an excuse to keep moving east, and that created a 
kind of a near panic, among some people, that led to the 
current attention. Of course, your bill--and it should be long 
noted--long preceded that crisis and was not as a result of it.
    So, the Pakistani Army began their military operations just 
in the last few days. The military operations--I'm not in a 
position this morning, Mr. Chairman, to report to you on how 
they're going, because the only information I have is 
fragmentary; it's more journalist than intelligence. I don't 
really--frankly, I don't really trust what I hear, from a 
situation like that, until the dust of battle is settled. But, 
one thing is clear, 900,000 refugees have been registered with 
the U.N. in that area, and we have a major, major refugee 
crisis. The executive branch is meeting steadily on this. I 
think there's a meeting going on right now about this, 
downtown. So far, the United States has provided over $57 
million for this crisis, from emergency funds. I would welcome 
any suggestions or advice you have on this, because, since our 
national security interests are so at stake and we look like 
we're heading for about 1 million to 1,300,000 refugees, we 
should not ignore that.
    The Chairman. Let me ask you, if I can--last question--What 
makes you--well, let me go back.
    When Pakistan was created, the Pakistanis themselves, and 
the British, agreed to create this area called the Federally 
Tribal Administered Areas, and they did it in acknowledgment of 
the complications of the Pashtun and tribal presence there. Sir 
Mortimer Durand drew a line right smack through the Pashtun, 
sort of, dividing them, partly in Afghanistan, partly in 
Pakistan. And, in effect, the Pakistanis acknowledged, by 
omission and commission over the years, what they chose not to 
do, that they were sort of happy to leave it be tribally 
administered and not essentially integrated into Pakistan.
    I remember meeting with President Musharraf a few years ago 
and pressing him on the issue of why they didn't go in and 
begin to deal with the extremism and, you know, the 
insurgencies then. And he talked about the complications and 
how difficult it was, and so on, and sort of underscored to me 
the reticence on behalf of some folks to deal with that.
    Obviously, Alexander the Great, the British, and the 
Soviets all found enormous difficulty in trying to tame that 
part of the world. Now we are sort of at this crucible, if you 
will, where we're trying to get them to do the very thing that 
they've never been willing to do and no one's been able to do.
    Share with us your thoughts about that. What is needed to 
be achieved, here, in order to protect the United States and 
our interests? And how do we keep our interests from being 
extended beyond what they really are or what is achievable?
    Ambassador Holbrooke. Well, you know, Mr. Chairman, when I 
asked people what books I should read about Pakistan, a lot of 
them suggested Rudyard Kipling's ``Kim,'' which is set in what 
is now called the FATA. The British set this area up as their 
western buffer against the wilds of Afghanistan. Your 
historical description is exactly correct. It was--we are--as 
in so many other parts of the world--think of Yugoslavia and 
Sudan--we've inherited boundaries--the world has inherited 
boundaries which leave a perpetual dissatisfaction. The 
international boundary is disputed.
    Many of us believe that one thing that should be done is to 
take the Federally Administered Tribal Areas and incorporate 
them into the full political life of Pakistan. President 
Zardari has said he'd like to do that. Nawaz Sharif says he 
would favor it. I would hope the Pakistani Government would 
consider moving on this. It's been out there for many years.
    This arrangement you describe began under the British at 
the end of the 19th century, and, while it's very romantic for 
readers of Flashman novels, it's not a good way to run that 
area.
    And it has--but, you see, until 9/11, that--the tribal 
system kind of ran itself. Then the United States drove the 
Taliban east, they nested in this area. The United States and 
the government in Islamabad ignored what was happening. And, as 
they nested, they festered. And they realized that, not only 
did they have a nice sanctuary to counterattack Afghanistan, 
they had a nice place from which to recruit and focus on the 
east, as well.
    Your bill provides more funds in one bill than the United 
States has spent in that area since 9/11. That is one of the 
reasons we are so enthusiastic about it. It's long overdue. And 
I cannot offer you solutions today, Mr. Chairman, but I can 
offer you a significant redirection in American emphasis and 
focus.
    The Chairman. Senator Lugar.
    Senator Lugar. Well, thank you, Mr. Chairman.
    Ambassador Holbrooke, I want to discuss the legislation 
with you for a moment, because it encompasses 5 years. 
Obviously, today we are talking about the crisis of today and 
the next few weeks, and 5 years seems like a long time away, 
through the entire administration, through several different 
elections of Congress. This is why, in the bill, we tried to 
set up, first of all, the thought that the administration 
should have a plan for the 5 years.
    Now, as the American people take a look at $7.5 billion 
over 5 years for Pakistan, and given the description we've 
already heard today of the military activity and the chaotic 
difficulties of refugees and so forth, there is not a very 
distinct image of what anyone does with the $1.5 billion in any 
particular year, quite apart from over 5 years. There's the 
thought that somehow, for the first time, schools and health 
and civil governments and reform of this sort might be our 
objective, as opposed to an in-and-out business with the 
military. But, that almost begs the question of who in the 
administration sets up some parameters of how the money will 
flow, who administers it, and how the interface occurs between 
our United States administrators and those in Pakistan. 
Further, how the Pakistani administration will, we hope, take 
hold of the proper administration to bring about Pakistani 
objectives?
    And I just add, as a final thought to that question, that 
we've asked for a 6-month review--that is a report each 6 
months during this 5 years--for a total of 10 reports--
reviewing the progress made as it relates to the original 
administration plan provided for in our legislation--asking as 
to how effective were the expenditures in meeting what we 
thought were our goals. That will require some doing, likewise, 
by various persons who come along and who hopefully understand 
the whole ethos of the situation.
    So, describe the formation of the plan and how quickly that 
can occur, given the time limits, as you pointed out, and the 
need. And then, it would help if you could provide some 
description of what sort of personnel are available, in a 
country as large as Pakistan, to begin to implement the plan.
    Ambassador Holbrooke. Well, thank you, Senator Lugar.
    First of all, this--the money--if you're asking exactly how 
the money will be allocated, I would like to submit in writing 
to you a more precise outline of the--of how we would propose 
to allocate it.
    I think it's a very important question; I don't want to do 
it off the top of my head. And we're still----
    Senator Lugar. And, furthermore, there's flexibility given 
by the bill----
    Ambassador Holbrooke. Yes.
    Senator Lugar [continuing]. Depending upon the exigencies 
of the time.
    Ambassador Holbrooke. But, second, in regard to the tribal 
areas, the previous commitment from the executive branch was 
$750 million over 5 years. As a private citizen, I was briefed 
on this in Islamabad, and I, quite honestly, said, and I wrote 
at the time in the Washington Post, that I thought it was a 
pathetic amount of money, given the importance of this area. 
That discussion took place about 14 months ago.
    You are now offering us a very significant increase. 
According to the notes handed to me, in FY08 there was $187 
million provided to FATA. In 2009, the number will increase to 
$600 million.
    Now, what are we going to do with it? You mentioned 
development. Roads are important. Microcredit. I met, 
yesterday, with the people from FINCA, a wonderful NGO that 
specializes in microcredit and has a terrific program in 
Afghanistan. They have nothing in Pakistan. We're going to 
allocate some of the money, if you approve it, to FINCA, but 
ask them to start working out of Peshawar, because women's 
microcredit addresses so many different needs at once--health, 
education, livelihoods, the agricultural program I mentioned 
earlier, law enforcement.
    Quite honestly, although the money sounds like a lot, it 
isn't; it isn't, in my view, as much as the problem needs. Some 
people worry about capacity, but the Pakistanis have a well-
developed NGO system, they have a government out there, they 
need resources. The country is extremely poor. Over half the 
people live on less than $2 a day. And, by the way, every time 
I go to Islamabad, people say to me, ``Fine to give money to 
FATA, but that's only 4 or 5 million people out of 175 million 
in the country''--18 million people in Karachi alone, the 
world's largest Muslim city, and they have 4 hours of 
electricity a day, which is one of the reasons the water 
resource management program and the dam--the program for the 
Joint Afghanistan/Pakistan Dam, which was just signed in front 
of Bob Zoellick last week during the summit--are so important. 
The needs there are enormous, and the history of United States 
relations with Pakistan has emphasized the wrong kinds of 
assistance.
    So, with your permission, I will submit a more precise 
answer.

[The information was supplied in the written responses to 
questions submitted by Senator Lugar. See page 41 in the 
``Additional Material Submitted for the Record'' section.]

    Senator Lugar. That would be helpful. And, likewise, would 
you provide some idea of this plan that the bill calls for. In 
other words, the answers you're going to give will be very 
helpful, in terms of your on-the-spot view, but I think what 
we're going to be looking at regularly is this plan, because 
we're going to be coming back to it every 6 months for how much 
of it's being fulfilled.
    Ambassador Holbrooke. We would welcome, Senator Lugar, a 
continual dialogue, not just every 6 months, but whenever you 
want. I would be delighted to travel with you and any of your 
colleagues to the region so that we can start with the same 
experiential base.
    But, let me make a point about the military side of things. 
It has been pointed out by a lot of observers that the army is 
overwhelming Punjabi and this is a Pashtun area. When Admiral 
Mullen and I met with people from the Waziristan area, on our 
last trip to Afghanistan--Pakistan--and I wish to emphasize 
that those people met with us at the risk of their lives. It 
was really dangerous to come into Islamabad. When we met with 
them, they told us that Punjabi military coming into a Pashtun 
area are as alien as it would be if they were NATO troops. And 
we take that point.
    So, where do we come out on the security side? There is 
this ancient group called the Frontier Corps; again, 
Kiplingesque, Kipling-era stuff, very colorful group. We 
believe that they can be strengthened into a serious 
counterinsurgency force.
    Mr. Chairman, I'm just responding on a point I know is of 
particular interest to you. The upgrading of the Frontier 
Corps.
    Senator Lugar. Right.
    Ambassador Holbrooke. A lot of the money we're asking you 
for is going to go to seriously upgrading their weaponry. Maybe 
we think the time for Enfield rifles is over. They still use 
them. And, by the way, they still work. We're going to try to 
give them better counterinsurgency training. And we think their 
size can be increased. We have a very, very small American 
contingent out there, doing advice only. And we want to give 
them some means.
    One last point, Mr. Chairman, and this is the one I feel 
most strongly about. Concurrent with the insurgency is an 
information war. We are losing that war. The Taliban have 
unrestricted, unchallenged access to the radio, which is the 
main means of communication in an area where literacy is around 
10 percent for men and less than 5 percent for women. And radio 
is broadcast from the backs of pickup trucks and motorcycles, 
it's from mosques. It's low-wattage FM radio stations. They 
broadcast the names of people they're going to behead, just 
like Rwanda. And for reasons that are hard to explain, we have 
no counter-programming efforts that existed when we took 
office. We have a--we don't have jamming, we don't try to 
override, we don't do counter-programming.
    Senator Kerry and I, in particular, have talked about this, 
and I want to state, in front of the full committee, that 
Senator Kerry wrote into his bill a special section on this 
issue. That's very helpful to us in our internal dialogue, 
which is going on as we speak. President Obama has personally 
expressed a desire to deal with this. And we shall do so.
    And I want to bring to your attention that this particular 
issue--we cannot win the war; however you define ``win,'' we 
can't succeed, however you define ``success''--if we cede the 
airwaves to people whose--who are--who present themselves as 
false messengers of the prophet, which is what they do. And we 
need to combat it. And I thank you for bringing--for 
highlighting that issue in the bill that you and the chairman 
have put forward.
    Senator Lugar. Well, thank you. I appreciate, as always, 
your testimony. But, as I say, please get back to us with the 
plan, because that will be important, not only for us, but, 
likewise, for our colleagues and for those in the public who 
are going to be following this for some time.
    Ambassador Holbrooke. I will, Senator Lugar. And I 
certainly will be responsive, as I've tried to be to you ever 
since we first started working together in the 1970s. But, I 
would like to underscore that we are--that we did a strategic 
review, but that was an overview. We are now drilling down to 
the deepest levels.
    General Petraeus and I have now operationalized most of the 
Afghanistan part. He and I are now turning to Pakistan. As you 
know, there's been a very important command change in 
Afghanistan yesterday. That doesn't apply directly to Pakistan, 
but anything that happens in one country affects the other.
    We are in the--we have upgraded our Embassy in Afghanistan 
enormously in the last few weeks, not only with Carl Eikenberry 
as our new Ambassador, but with Ambassador Frank Ricciardone as 
the deputy ambassador, Ambassador Tony Wayne, from Argentina, 
former Assistant Secretary of State for Economics, going to be 
the field--the boss of the field operations. We now have to do 
the same thing in Islamabad. Ambassador Patterson and I have 
talked about it, and we welcome your support on that, as well.
    Senator Lugar. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar.
    Let me just say quickly, as I turn to Senator Feingold, 
that the Frontier Corps has been doing some interesting and 
surprisingly capable things, and I think there is promise 
there. And second, that small unit that you've talked about, 
there is just some exceptional people who have a terrific sense 
of what reality is on the ground, and we need to listen to them 
closely as we go forward
    Senator Feingold.
    Senator Feingold. I thank the chairman very much for 
holding this hearing.
    And, Ambassador Holbrooke, thank you for coming before the 
committee. As you know, I was just delighted when the President 
and the Secretary of State had the wisdom to select you to be 
the special envoy on this issue. And I give the chairman 
enormous credit for that lunch the other day. It was one of the 
most unique things in the mere 17 years that I've been watching 
these things. And I saw fingerprints of Dick Holbrooke all over 
that very unique event that I thought was just excellent.
    Now, it has been nearly 8 years since al-Qaeda attacked the 
United States. And, while I'm very pleased that President Obama 
has unequivocally recognized the need to refocus the 
government's attention and resources on this threat, I do 
remain concerned that the plan for Afghanistan and Pakistan has 
the potential to escalate, rather than diminish, the threat.
    Since 2001, as you pointed out, Pakistan has received 
billions of dollars from the United States in assistance 
packages and reimbursements for security-related 
counterterrorism initiatives, and yet, al-Qaeda has actually 
reconstituted itself along the border region, primarily because 
the last administration focused its attention on Iraq and 
relied on a partner in Pakistan who lacked popular support and 
whose commitment to fighting extremism was questionable. 
Fortunately, President Obama wants to reverse the previous 
administration's failed policies.
    Good intentions are not enough, however. As the President 
and the Secretary of State have made clear, security in 
Afghanistan and Pakistan, and even for us here at home, are 
inextricably linked. Adding 21,000 new troops in Afghanistan, I 
fear, could further destabilize Pakistan without providing 
substantial, lasting security improvements in Afghanistan. Your 
very words here this morning, Mr. Ambassador, were, ``We pushed 
them to the east.'' The question here is, Are we going to 
continue to push more people to the east who may be more able 
to do us harm in Pakistan than they're able to do us harm in 
Afghanistan?
    So, obviously, as you know better than anyone, to succeed, 
we must ensure that we have an equal partner in the Pakistani 
Government. If we're serious about fighting al-Qaeda and 
preventing another generation of bin Ladens from emerging, we 
must also ensure that any expanded support for development, 
rule of law, human rights, and anticorruption is met with equal 
dedication by the Pakistani Government.
    And along these lines, Mr. Ambassador, I'm interested to 
hear from you today about how we can help ensure a coordinated 
and effective response to the rising numbers of displaced 
people that have resulted from the recent military offensive in 
the western part of Pakistan, which, of course, we all know 
we're not talking here about the FATA; we're talking about 
Pakistan proper, we're talking about internally displaced 
people. And, as you know from our previous conversations, less 
than a year ago I had the opportunity to see the good effects 
of American aid in both the North West Frontier Province and in 
Pakistani Kashmir after the earthquake.
    Now, we can't have a foreign policy based on waiting for 
natural disasters. However, when one does occur--we've seen, 
both in the tsunami incident in Indonesia, in that region, and 
also here in Pakistan--that that is something we can do, and do 
quickly, that can make a difference. So, I urge you to consult 
with people in the administration to help make that happen.
    I'm also pleased that Senators Kerry and Lugar have 
reintroduced and updated legislation to strengthen Pakistan's 
civilian government. That is overdue. And I'm also pleased to 
see that the legislation will require the Secretary of State to 
be forthcoming on what progress is occurring as a part of our 
oversight. After all, this does, obviously, involve taxpayer 
dollars.
    Now, back to the issue, Ambassador, of what you just said, 
that everything that happens in Afghanistan affects Pakistan. 
Well, that gets at the core of some of my concerns.
    Is the proposed policy sufficiently considering the--what I 
like to call the ``balloon effect'' of ``whatever happens in 
Afghanistan affects Pakistan,'' or vice versa? You've said that 
the impact of our troops in Afghanistan will mean the Taliban 
will, ``go east into Pakistan toward the Baluchistan area--an 
issue that has to be addressed.'' So, I'm curious, Do you 
believe the Pakistani Government is doing everything it can to 
capture Taliban leaders, particularly in Baluchistan? And are 
we sure that when we put 21,000 more troops in Afghanistan, and 
get up to a level of 70,000 troops--are we sure that that isn't 
making the situation in Pakistan potentially worse? Or is it 
actually making it better? Could it--is it possible that it's 
going to be having the kind of negative effect that you've 
actually alluded to in your remarks?
    Ambassador Holbrooke. Thank you, Senator Feingold.
    On your first point----
    The Chairman. Is your mike on?
    Ambassador Holbrooke. Thank you, Senator Feingold. On your 
first point, you are absolutely correct that an additional 
amount of American troops, and particularly if they're 
successful, in Helmand and Kandahar, could end up creating a 
pressure in Pakistan which would add to the instability. I 
raised that issue as soon as the troop discussions began at the 
White House, and I was not alone in raising it.
    The United States military command, under GEN David 
Petraeus, who I think is a great American military leader, is 
well aware of it. They have been conducting, and are conducting 
as we speak, very intense discussions with the Pakistani Army 
to work with them so that they will be prepared this time, as 
they were not prepared in 2002 for what happened.
    On your key question, Is Pakistan doing everything it can 
to capture Taliban leaders, al-Qaeda, and so on?--you heard, as 
I did, General Pasha's reply, in closed session, to that 
question, in the lunch we discussed earlier. I don't know the 
answer to that, because I don't know what it is they're not 
doing that they could be doing. They have captured over--and 
killed and eliminated over the years a good number of the 
leaders of the Taliban and
al-Qaeda. But, others have been under no--under less pressure.
    There is a history here, which General Pasha spoke very 
frankly about at our lunch, when he said, quite bluntly to the 
Senators assembled and those of us who were privileged to be 
there, that we have to remember that this had originally been a 
joint Pakistani-American intelligence operation in the 1980s, 
and when the United States walked out on Afghanistan in 1989, 
which history will record as a very serious error, the 
Pakistanis were left with a situation which required them, from 
their own point of view, to continue some of these 
relationships. It made sense in 1989, it made no sense after 9/
11, from our point of view, but many people think the 
Pakistanis are still ambivalent about it. And many people in 
the region--indeed, the bulk of the people in the region, as 
all of you know--believe the United States will abandon them 
again, because of the history.
    One of the things that this administration has tried to do 
is say, ``We're not going to walk out, this time.'' But, words 
have to be measured against history, and the history has left 
them skeptical. And we need to show the region, which is, 
again, why this legislation has become so important--I mean, I 
want to be very frank with you, the phrase ``Kerry-Lugar'' has 
a talismanic quality in the Pakistani press now. It's not just 
the amount of money, it's the fact that it is now read as a 
symbol of our intentions to stick around and be serious about 
it. And, of course, the troop commitment in Afghanistan speaks 
for itself.
    Senator Feingold. Mr. Ambassador, my time is out. I just 
want to make sure I get an answer to the larger question. Are 
you sure that the troop buildup in Afghanistan will not be 
counterproductive, vis-a-vis Pakistan?
    Ambassador Holbrooke. No, I am only sure that we are aware 
of the problem, that we are working intensely with the 
Pakistani Army, that they are aware of it, that the lesson of 
2001-02 is--been absorbed. But, everyone who's observed the 
situation from the outside has come to the same conclusion, 
Senator Feingold, and that is that there are not enough forces 
in the west. And this offensive will drive pressure into 
Baluchistan, where the fighting now is to the north and the 
Federally Administered Tribal Areas. We hope that the 
Pakistanis will move more troops into the west, improve the 
training of the Frontier Corps. We're ready to assist with all 
of this. It is imperative that it be done. It is an 
extraordinarily complicated equation.
    Why, then, would I still support the troop buildup in 
Afghanistan, which I strongly support? For the simplest of 
reasons. You could not leave the American, the NATO, and the 
ISAF forces in the deployment structure which was inherited on 
January 20. We did not have enough forces, ourselves, to do our 
own job, so the recommendation of General Petraeus and General 
McKiernan for an additional 17,000 troops and 4,000 trainers 
was, in my view, absolutely critical.
    But, yes, we're aware of the consequence. And I would say, 
quite candidly, that wasn't true 7 years ago.
    The Chairman. An honest answer. Thank you.
    Senator Corker.
    Senator Corker. Mr. Chairman, thank you.
    And, Ambassador, thank you for your testimony. And I, too, 
want to thank you for the lunch meeting that took place last 
week. I will tell you that what struck me about it was, it was 
the last event with two leaders that were here, and I think 
it's very intelligent that you all are having these trilateral 
meetings. I thank you for that.
    What struck me, though, was, after having these ministerial 
breakouts and having days of meetings--and I'm going to ask 
some questions about Afghanistan, since it--your term ``AfPak'' 
is one that's been part of the vernacular here in Washington 
now--I was struck by the fact that the President of Afghanistan 
could not, in a coherent way, relay what our mission in 
Afghanistan ought to be.
    Ambassador Holbrooke. And may interrupt to say----
    Senator Corker. And then----
    Ambassador Holbrooke [continuing]. To say----
    Senator Corker. Well, not----
    Ambassador Holbrooke [continuing]. Interrupt to say that--
--
    Senator Corker. Well, let me finish.
    Ambassador Holbrooke [continuing]. The President was----
    Senator Corker. Let me finish.
    Ambassador Holbrooke [continuing]. Struck by your response.
    Senator Corker. Well, his nonresponse----
    Ambassador Holbrooke. He was very----
    Senator Corker [continuing]. His nonresponse was pretty 
stunning to, I think, most people in the meeting. And when I 
pushed back in--at his eloquent, long-winded nonresponse, he 
then said, ``This is your mission,'' OK? And I was also 
struck--I was glad to see the good relations between him and 
President Zardari. That was good to see.
    But, I guess what I'd like to ask you one more time, 
because I've said before, your explanation of our mission there 
has sort of rung hollow--and you're a very knowledgeable 
person, you're our person as it relates to foreign relations 
there--What is our mission in Afghanistan, in your words?
    Ambassador Holbrooke. Well, first let me just clarify my 
interjection. You made a big impact on President Zardari. I 
don't dispute your characterization of the exchange, but it was 
one of the most memorable moments of last week, and he got your 
message, which was that you, as a senior member of this 
committee, were not satisfied with his answer. And I think it 
had exactly the desired effect.
    Will it produce the desired outcome? That's another issue. 
This dealing with the Pakistani Government, with its 
complexities--after all, the Prime Minister has a lot of power, 
too--is difficult.
    Now, on the question of our mission; our mission was 
clearly stated by the President in his speech at the end of 
March. It is to defeat, dismantle, and disable al-Qaeda and the 
enemies of the United States who directly threaten us.
    Now, since those--since the al-Qaeda is overwhelmingly in 
Pakistan, not Afghanistan, the question legitimately arises, 
Well, why are we fighting in Afghanistan, when the enemy is in 
Pakistan? And we spent a lot of time discussing this. And the 
answer is, the Taliban and al-Qaeda are so interrelated that 
Taliban--you might envisage it as the cordon which surrounds 
the hard core. Taliban does the local jihad, al-Qaeda does the 
global jihad, and they interact. And we believe strongly--and I 
believe all observers would agree--that the enemies of the 
United States--Taliban, al-Qaeda, Baitullah Mehsud, and 
others--who also are enemies of the Pakistan democracy--are 
people we must deal with.
    I stress again, Senator, the enemies of Pakistan are the 
same as the enemies of the United States. Some of them are in 
Afghanistan, some of them are in Pakistan. We must help them 
win.
    Senator Corker. OK.
    Ambassador Holbrooke. And by ``win,'' I mean stabilize the 
Government in Pakistan and give the Afghans the capacity to 
defend themselves.
    Senator Corker. So--I have shown support for our efforts in 
Afghanistan and our efforts, certainly, in Iraq. You all have 
just gone through a strategic review. We are asked to vote on a 
supplemental next week. I have to tell you that there is a lot 
of moving parts, from my perspective, and I do not think that 
we have coherently laid out to this body what our strategy is, 
overall. I mean, Senator Feingold had some questions. There are 
issues that I think that need to be discussed.
    And before I move on to this bill, I would just say that I 
really think that it's a mistake to bring the supplemental up 
next week. We've talked to the Army; they're not going to be 
out of funds until July 1. We just talked with them within the 
last hour. And I think, for Members of this body, on both sides 
of the aisle, to have the questions that we all have, 
especially after meeting with the leaders of these two 
countries last week, I think it is a mistake, and I think we 
are potentially embarking on a monumental mistake, whether we 
end up doing the right things or not, by this body not 
discussing this in the way that it should and being fully 
bought into something that I think is going to be a part of our 
country's efforts for years to come, especially since we are, 
in fact, doubling down, if you will, in Afghanistan.
    And so, to me, this is something that we should discuss 
much more fully, should not rush out a supplemental today.
    So, let me just--and especially--I'd love to talk about 
just the little things, like corruption. I mean, your 
administration has alluded to the fact that, in the poppy-crop 
areas, that you feel the government is actually taking more of 
the illegal moneys than the Taliban is, that we're supporting 
an illegal government action there, that that is of greater 
concern than the poppy crop actually going to the Taliban. OK?
    In Pakistan, you know, I hate to be pejorative here, but, I 
mean, the Leader was formerly called ``Mr. Ten Percent.'' I 
know that that may be unfair. But, I do think we need to 
understand how these moneys are going to be circulated through 
these countries in such a way that they don't end up in a bank 
account in Switzerland. I think those are important things to 
talk about.
    But, let me just say, this bill--to come down to this piece 
of legislation, since I have 29 seconds left----
    The Chairman. Senator, this is important enough--happy to 
give you a little extra time, if colleagues--you know, this is 
an important discussion. We're here to have the discussion, so 
now is the time to get at it.
    Senator Corker. Well, I appreciate the phone call that we 
had yesterday, but I really believe that this administration is 
making a large mistake asking for this supplemental today, when 
our engagement there is going to be multiyeared. You all have 
just come in--I'm not criticizing you; you're a man of extreme 
knowledge--but, we have not hashed out what's happening, and we 
are going to be engaged there for many, many, many years. Many 
men and women will lose their lives. We're doubling down--and 
we haven't debated this yet. OK? So, I'm going to stop there.
    But, on this legislation, just to get to the menial issues 
of the day, I appreciate the leadership of our two Senators in 
offering this. I do find it similar to what I'm saying about 
the supplemental. We are asking you to tell us what you're 
going to do with this money after we pass the bill. I just find 
that to be really odd. It seems to me that the administration 
would come tell us what it is they want to achieve in Pakistan, 
and tell us what the benchmarks are; we would look at the 
intelligence community's efforts, which I know that is 
occurring, and we would look at what we ought to be doing in 
regard to that, after you have laid out to us what those 
benchmarks are. For us to pass a large amount of funding, and 
yet, then ask, later, for you to tell us what you're going to 
with it, to me, seems backward. And I would love a response to 
that.
    Ambassador Holbrooke. Senator, I agree it's complicated, 
and I agree it's tough, and I think every Senator on all sides 
of this issue has made that point, no more eloquently than our 
chairman, here, and Senator Lugar.
    But, I do not feel that it's quite fair to say that we 
haven't outlined what we do with it. I responded to Senator 
Lugar's question by listing health, education, livelihoods, 
women's microcredit, capacity-building, the Frontier Corps. We 
have changed the focus. None of this happened in the past. And, 
on your points about corruption and counternarcotics, I'm on 
the record as agreeing fully with what you just said.
    So, why, then, do I, respectfully--and I mean the 
``respectfully'' sincerely--why, then, do I disagree with you 
on the issue of delaying? First of all, we're not asking for 
money and then we'll decide how to spend it. We're asking for 
emergency money at this moment. But, I need to underscore the 
following point, particularly given the very high visibility of 
this bill in Pakistan.
    Senator Corker. We're mixing messages. The supplemental and 
this bill are two separate issues, right?
    Ambassador Holbrooke. I understand the difference.
    Senator Corker. OK.
    Ambassador Holbrooke. I understand the--I've testified 
before the supplemental people, too. But, the--and this is an 
anomaly of the way the press covers it, but the words ``Kerry-
Lugar'' have become a symbol of American support for Pakistan 
in the emergency, not something called ``the supplemental,'' 
which contains a lot of other things. I understand that the 
supplemental is necessary for the money. I'm just telling you 
facts on the ground.
    But, the point I want to underscore, Senator, with great 
respect, is simple. The only beneficiary of a delay in this 
bill is the enemies of our Nation, the people who are trying to 
have the next 9/11, because they will use it, on that radio 
that I was talking about earlier, to mislead people as to our 
true commitments in the area. So, while I agree with you about 
the supplemental----
    Senator Corker. That we should put it off?
    Ambassador Holbrooke. Sir?
    Senator Corker. That we should put the supplemental off and 
at least----
    Ambassador Holbrooke. No, sir.
    Senator Corker [continuing]. Us----
    Ambassador Holbrooke. No, sir. I'm in favor--I've supported 
the supplemental, as well. But, that--but, we're here to 
testify in behalf of your bill, as I--that's why I'm here. And 
I----
    Senator Corker. Well, the supplemental's coming up next 
week. I know my time is up.
    Ambassador Holbrooke. But, you're talking----
    Senator Corker [continuing]. The----
    Ambassador Holbrooke. You asking me about----
    Senator Corker. The supplemental's what----
    Ambassador Holbrooke [continuing]. Delaying the 
supplemental?
    Senator Corker. Yes. I mean, this bill is a----
    Ambassador Holbrooke. Oh.
    Senator Corker [continuing]. Is a--the Army does not need 
those funds until----
    Ambassador Holbrooke. Yes----
    Senator Corker [continuing]. July 1.
    Ambassador Holbrooke. The----
    Senator Corker. And we have not, in any--you've had a 
strategic review. We had two leaders come up here that had no 
earthly idea what our mission is in their countries. OK? And 
the fact is that I don't think we, as a body, have talked about 
Afghanistan in the proper way yet.
    The Chairman. Well, let me--can I intervene here, just if I 
can, because I want to--I want to give you some leeway, but I 
also--we have colleagues who are waiting. But, I want to try 
to--let me cover a couple of things quickly.
    First of all, Senator, I think it is entirely appropriate, 
particularly given the change of command that has just taken 
place, in our Secretary of Defense's own judgment that there 
needs to be a transition, it's very appropriate to be asking 
some questions about Afghanistan and the supplemental. I think 
a lot of us have some questions.
    But, let's separate that out for a moment from this, and 
also separate out the--I want to speak to this question of the 
two Presidents' definitions. You and I heard that answer 
differently. I heard President Karzai very clear say that, ``If 
your definition of the mission was what the prior 
administration said it was''--i.e., the building of a 
government, democracy, you know, putting in place X, Y, Z, 
schools, et cetera--he tipped his hat to that administration 
and basically absolved us of that responsibility for that, 
saying, ``You've accomplished it. You gave us a national 
government, you gave us a process. We have an election coming 
up. We've built X number of schools. We have X number of women 
going to school,'' as he described it. I forget the percentage. 
He was very clear about that part of it. But, he said, what is 
unfinished--he was very clear--``Your mission is to fight al-
Qaeda and to prevent them from retaking over the--you know, the 
areas of Afghanistan where they can then launch strikes against 
the rest of the world.'' That's what he said. Now, that is, you 
know, basically what President Obama and others have defined 
it.
    Now, I still think we need to flesh out the how of some of 
that, personally. And we're doing that, here. I mean, the fact 
is that, when I was in Peshawar just a few weeks ago, and the 
Frontier Corps was telling me how they went into Bajaur, 
cleared it out, but it had been 7 weeks and nothing, absolutely 
nothing, had come in underneath it. That's the purpose of this 
bill. I mean, the whole purpose of this is to empower the 
civic, both in FATA and nationwide, that provides an 
alternative to what the Taliban are offering.
    What's interesting is, the Taliban, unlike Hezbollah or 
Hamas, who have mastered providing services and directly 
engaging in the, sort of, day-to-day life of citizens, Taliban 
don't do much in the way of service apart from meting out their 
rough version of justice; they just scare people and kill 
people and intimidate them. And so, they've actually left open 
an enormous opportunity, which is what the urgency of this bill 
is, is to be able to come in and empower some governance that 
actually makes a difference in the lives of people. That's the 
only way that we have a prayer, here. We, they, whoever--
however you link it.
    And so, I'd say to the Senator, we're happy to spend a lot 
of time on this, and we're going to spend some time on 
Afghanistan, because it's a tricky, long-term deal. And we need 
to do that. But, I do not think it's fair to say that President 
Karzai didn't define the mission in--as he sees it, in 
Afghanistan. And I said, afterward, that he, in effect, has 
given us a very much more limited, narrower mission than we've 
had for the previous 7 years.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Ambassador, thank you for your long-term service to our 
country, and this present assignment, as well.
    You know, I have supported, both in the House and the 
Senate, these efforts with Pakistan, but I have real concerns. 
I have to be honest with you. It's those concerns that led 
Senator Harkin and myself to ask for a Government 
Accountability report that came out that's called ``Securing, 
Stabilizing, and Developing Pakistan's Border Area with 
Afghanistan.'' And basically, that report said that, after 6 
years of efforts by the United States and Pakistani 
Governments, and over $12 billion in military and development 
assistance, al-Qaeda had, ``regenerated its ability to attack 
the United States, continues to maintain a safe haven in the 
FATA region.'' It noted that an integrated, comprehensive plan, 
including all elements of national power--diplomatic, military, 
intelligence, development, economic, and law enforcement--had 
not yet been developed for the FATA, despite that fact that it 
was called for in the 2003 national strategy for combating 
terrorism, the 9/11 Commission report, and the implementing 
legislation of the 9/11 Commission.
    So, the question is, one: Do we not need a comprehensive 
strategy, as the Government Accountability Office called for? 
And second, What is it? And third, Do we not, after--you know, 
the Pakistanis have, in my mind, a series of one step forward, 
two steps backward. The Pakistanis rush their troops to the 
Indian border when their own sovereignty is being besieged by 
the elements within their country. They make a deal in the Swat 
region, which I believe is in their interest, not ours. You 
have our Director of the CIA going in what was supposed to be a 
private, secret meeting, having a videotape released of him. 
You wonder whether the Pakistanis are on the same page as us, 
or they're only there when, in fact, pressure is exerted, in 
their own national interests, as well as ours.
    So, do we need a comprehensive plan? What is it? What is 
our strategy--our comprehensive strategy? And should we not 
have benchmarks to make sure that we don't continue in the one-
step-forward two-steps-back?
    Ambassador Holbrooke. Thank you, Senator.
    I believe we do have a comprehensive strategy.
    Senator Menendez. What is it?
    Ambassador Holbrooke. And we have--the President laid it 
out in his speech, in the end of March. We laid it out to our 
allies. We've briefed the Hill repeatedly and in detail.
    Senator Menendez. Well, what is it? Give me the elements of 
it.
    Ambassador Holbrooke. The key elements are, No. 1, to 
defeat the people who pose a direct threat to our homeland--al-
Qaeda and its supporters; to stabilize the Government of 
Afghanistan and give it the ability to be self-sufficient in 
defense of its--in its own security so that eventually the 
American combat troops and the NATO combat troops can leave; 
to----
    Senator Menendez. I'm talking about Pakistan, though, for 
the moment.
    Ambassador Holbrooke. Well, these two are completely 
related, Senator.
    Senator Menendez. But, when you're asking money----
    Ambassador Holbrooke. And in----
    Senator Menendez [continuing]. When you're asking money for 
Pakistan, specific, I'd like to understand what our strategy is 
in the context of Pakistan.
    Ambassador Holbrooke. I need to stress again, as I have for 
years as a private citizen and in the government, that the 
ignoring of Pakistan, the complete ignoring of Pakistan, in 
terms of these issues over the last few years, significantly 
contributed to the current crisis in Afghanistan, as well as 
Pakistan.
    As for Pakistan itself, how can we ignore that area of 
western Pakistan which contains the people sworn to destroy 
America? So, we need to strengthen and help stabilize this 
government.
    It begins with strengthening democracy. After a 10-year 
military rule which was very bad for our strategic interests 
and, I believe, for Pakistani people, particularly the latter 
part of it.
    There are many parts--the previous Senator spoke about the 
many moving parts here; there are many moving parts, and I'd be 
happy to go back over them again at any time you wish. But, I 
want to underscore that to strengthen Pakistani democracy will 
take resources, which is why we strongly support this bill.
    We need to--before you came in, we had extended colloquy on 
the Frontier Corps. Well, the Frontier Corps are from the local 
areas of the west, whereas the regular army are mainly 
Punjabis. It's been pointed out repeatedly that Punjabis are 
regarded as an alien force in the western areas. So, we want to 
strengthen the Frontier Corps.
    We want to build roads, help them build roads, clinics, 
education, jobs. There's another bill in the Congress on the 
opportunity zones, sponsored in the Senate by Senator Cantwell, 
which is a very important job-creation bill, which I hope will 
also get passed.
    Our role here--we can't run Pakistan; it's the second 
largest Muslim country in the world, it's a vast and 
complicated country. But, we can do more to help the civilian 
development and economic issues and help them strengthen 
democracy.
    Senator Menendez. Let me say that I don't believe that--$12 
billion later, that we are ignoring or have been ignoring 
Pakistan. If, $12 billion later, you were telling a United 
States taxpayer that we have been ignoring Pakistan, they would 
probably bristle at the idea. The reality is, is that when I 
talk about strategy--and I appreciate the development efforts 
that you just talked about; I support those--but, I'm talking 
about a strategy that brings in the military element, that 
brings in the diplomatic element, that brings in the economic 
element, that brings in the intelligence element, that brings 
in the law enforcement element, that brings in the rule-of-law 
element. And I don't get the sense that we have that.
    Now, as someone who has continuously voted for this, I'm 
reticent to continuously vote without knowing that there is a 
strategic plan. I don't have the sense of that. And so, I'd 
like--you know, I look at what the GAO report said about our 
ability to validate funds that have gone there in the past. I 
don't know that we have a better structure today to validate 
the funds; we don't even know where significant parts of this 
money went to. That's $12 billion later. You're asking us to 
vote for a whole new set of money without knowing whether there 
are going to be benchmarks, without knowing whether we have a 
better system of accountability. I personally can't continue 
down that road, as much as I think this is critical.
    So, there's going to have to be some give-and-take here if 
you want the support of some of us, who have been supportive 
along the way, but are just not here for a blank check. I said 
that in the previous administration; and, as much as I respect 
this one, I believe the same standards have to be applied.
    Ambassador Holbrooke. Well, Senator, I am deeply troubled 
by what you said, because that----
    Senator Menendez. I'm deeply----
    Ambassador Holbrooke [continuing]. The GAO----
    Senator Menendez [continuing]. Troubled by where we're at.
    Ambassador Holbrooke. Well----
    Senator Menendez. I'm deeply troubled by where we're at----
    Ambassador Holbrooke. Senator----
    Senator Menendez [continuing]. And I get no sense of 
reassurance, from what I hear so far.
    Ambassador Holbrooke. Well, I'm sorry you don't get a sense 
of reassurance, but let me say that that GAO report arrived on 
my desk as I arrived at my job, and let me share with you a 
fact. The people who were in the Department wanted to write a 
point-by-point rebuttal to it, and I put a complete hold on 
that and said, ``On the contrary, that's going to be one of our 
guides for our policy.'' And if you feel that you should 
penalize this administration for the mismanagement that you've 
described accurately in the GAO report, I can't do anything 
about it. But if----
    Senator Menendez. No, I don't want to penalize--Mr. 
Ambassador, I don't want to penalize this administration for 
anything that, in the past, happened. But, I do believe that 
the past is prologue, unless we change it.
    Ambassador Holbrooke. Well, we are changing.
    Senator Menendez. And so, what I'm looking for is a sense--
a certainty of a strategy that will take this money and put it 
to good use between both the Kerry-Lugar bill and the 
supplemental and future moneys, as well as a sense of 
accountability and benchmarks, so that we don't continue the 
history that we've seen here. And so, I don't want to belabor 
the point. I would be happy to talk to you at length in my 
office at some point, if you want my support, because right now 
it is not there, based upon what I----
    Ambassador Holbrooke. I would be honored to come to your 
office and talk to you about it. We do have benchmarks. The 
Congress has asked for them. They're being worked out in detail 
now, in conjunction with the staffs in both houses, under the 
direction of Admiral Blair, the Director of National 
Intelligence. We are going to respond to any requests you have 
for benchmarks and metrics. We agree with everything you've 
just said.
    Having said that, I believe very strongly that the 
Pakistani people and their new democratic government deserve to 
have our support. You talked about the waste of the $12 
billion. I wrote about that, as a private citizen. I thought it 
was a waste, a lot of it, because it went to conventional 
military support. And I'm not going to detract what I said as a 
private citizen, but I'm here today, Senator, to underscore to 
you that we have a different strategy. We've laid it out in 
public, we've laid it out in private. I would be happy to come 
up to the Hill with General Petraeus, if you wish, and we'll 
come up and have more private meetings. I've met with--I would 
say I've met with half the Senators in this body personally 
since I started this job, in only 3 months, and--probably more 
than anyone else except Secretary Clinton--and I am committed 
to working with you.
    But, we do have a strategy, and it is still being refined 
at the tactical and operational level. We discussed a lot of 
this earlier this morning here. And if there's any specific 
issue you want to cover, I'd be delighted to do so.
    But, we cannot walk away from Pakistan now without damaging 
our own most vital national security interests.
    The Chairman. Senator Menendez, if I can just--first of 
all, your questions refer to the Coalition Support Funds rather 
than programs run through State. These questions are very well 
put and important, and--we have a record here of not having had 
that accountability. And again, we're not trying to go 
backward, but we did find out where the money went in the last 
years, because we thought it was going in one place, and, in 
fact, regrettably, it went to the general treasury of Pakistan. 
That's where it was spent. So, we gave significant billions of 
dollars to Pakistan for one purpose, and it was spent for 
another.
    Now, with that knowledge, we drafted this legislation, and 
this legislation is very specific in saying that the President 
has to submit to us, as well as to the Appropriations 
Committee, the amounts of funds that are going to specific 
projects and programs, a description of the specific projects 
for which the money is going to go, a list of the criteria used 
to measure the effectiveness of those projects, systemic 
qualitative basis for assessing whether the outcomes are 
achieved, a timeline for each project and program, a 
description of the role played by the Pakistani national, 
regional, and local officials in identifying and implementing 
each of those programs, and all of the amounts of money that 
are going through it. So, those are some of the benchmarks and 
requirements that we've set out here specifically in response 
to what's promoting your concerns, and the administration has 
worked with us very closely in laying those out.
    So, we, I think, are going to have a direct track on each 
and every dollar here, which is the intent and purpose of 
this----
    Senator Menendez. Mr. Chairman, if I may, very briefly, 
because I know my colleagues----
    The Chairman. Go ahead.
    Senator Menendez. I just--I appreciate what you're trying 
to do in the bill. And what I want to see is, even giving those 
metrics, which I applaud, how does that fit into the strategy, 
which I'm still not quite sure is----
    The Chairman. That's fair. And I think that Ambassador 
Holbrooke has said he's spent time--and we'll have another 
hearing, if we need to, in the next days in order to make sure 
that we thoroughly answer all these things.
    Ambassador Holbrooke.
    Ambassador Holbrooke. May I add one more point before the 
Senator leaves, and that is that the Congress created, I think, 
a year or two ago, the special inspector general for Afghan 
Reconstruction, SIGAR, which is now headed by a retired major 
general named General Fields, Cyrus Fields. We have been 
working very closely with them. Their responsibility, of 
course, is solely to the Congress, and we understand that and 
respect it. But, I want to say that I believe they have 
tremendous potential, Mr. Chairman, to help in the fight 
against corruption if you would consider--and I'm speaking way 
out of previously thought-through guidelines here, but I wanted 
to bring it to your attention--the Afghan Government and the--
has specifically asked SIGAR to help it in the anticorruption 
efforts. And I think this would be very valuable. It may 
require some consultations or legislative adjustment.
    And I also think that, as we expand our efforts in 
Pakistan, you may wish to consider whether they have an 
oversight role. There are something like six different 
inspectors general and oversight committees in the executive 
branch and reporting to the Hill. You mentioned one of the most 
important: GAO. But, there are also the SIGAR group, there's 
the inspector general of the State Department, there's the 
inspector general of AID, and there are several other oversight 
committees. SIGAR is the one that seems to be most actively on 
the ground, because of the authority you gave them. And I 
wanted that to--I wanted you to reflect in the record how much 
we value them, while respecting their independence. And to the 
extent you wish to expand their mandate or expand their 
resources, we would strongly support that.
    The Chairman. Well, that's something we should talk about 
in the next days.
    And, Senator Menendez, we might add, there's a GAO report 
required here within 1 year of the strategy report being 
submitted to us. So, within 1 year of that, we have an 
independent assessment of everything that the strategy report 
laid out. So, we're working at it, and we'll work closely with 
everybody here to do it.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Ambassador Holbrooke, thank you for coming today. And let 
me say, you can put me in the same column as Senator Corker and 
Senator Menendez, as being less than enthusiastic at this 
point. I'm really concerned about Afghanistan. It seems to me, 
in Iraq, we're winding down, there's going to be problems there 
as we leave; we're going to have to deal with those as we 
leave.
    Pakistan, you know, you've got the government--the people 
themselves fighting for control of their government. We've 
chosen sides. I think it's going to be somewhat easier to make 
decisions there as to how we support the side that we've 
chosen.
    The Afghanistan problem--I was there last month. I've met 
with the President. I was at the same lunch. And, Mr. Chairman, 
I can tell you, I think you were a lot more articulate than the 
President was about describing the progress there.
    I've got to tell you, I was--I have been stunned by the 
lack of progress in Afghanistan. When you go there and you look 
at what's happening, and you look at what has happened, it is 
just breathtaking the amount of money, the American lives we've 
spent there, and you have a government that has control maybe 
to the outskirts of the capital. You've got a population that 
has, really, no sense of nationalism. You've got an economy 
that's based on a product that is illegal in virtually every 
country in the world. And the corruption, everybody admits that 
nothing happens without bribery and corruption there. It is 
terribly depressing.
    And this--to me, until somebody gets a handle on stopping 
the poppy production, all of this stuff is--goes by the by. To 
me, trying to say, ``Well, we don't want any corruption in the 
country'' is kind of like telling the Mafia, ``Well, OK, you're 
in charge of prostitution, gambling, and drugs, but we don't 
want any corruption with you.''
    You stand on the abyss and look into that black hole, and 
that's about all you see, is a black hole. You just don't see a 
bottom.
    Now, I just heard you articulate what our objectives are 
there, and that is to decimate the bad guys. You just don't 
have the country itself having the willpower, the political 
willpower, to join us in that. In fact, I heard the President 
say--and he didn't say it directly, but if you read between the 
lines--that, yes, we stood up their government; yes, we've 
stood up their military; yes, we've stood up their police, 
``But you guys--America--need to continue this fight with the 
Taliban and al-Qaeda.'' You know, I wanted to jump at that 
point and say, ``Well, what are you going to do about this?'' 
because that enthusiasm--I just don't see it.
    And I've got to tell you, the Afghanistan thing is very, 
very depressing. And I'd like to--with the money we're putting 
in there, we need to have--we need to have something much, much 
more concrete than what we have. I'd like to see an end game, 
but I don't know who's smart enough to develop an end game for 
us in that country. It's very depressing.
    Thank you, Mr. Ambassador.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Risch.
    Ambassador Holbrooke. That's pretty close to the view I had 
when we entered the government. I don't mean to be facetious 
about it, but your description is--I would quibble with some of 
the details. There are areas of progress, real areas of 
progress. But, the overall situation has deteriorated since 
2004--there's no question about it--in Afghanistan. And that, 
in turn, has increased the pressure in Pakistan, and vice 
versa. We all understand that, Senator. That's why we're here. 
We're trying to turn around the situation, which was clearly in 
decline when the administrations changed. And I'm very grateful 
to the support--for the support and advice of this committee, 
and of the Senate in general, because we have a common enemy 
and a common threat and a common mission here.
    And I really don't agree with the previous Senator that we 
don't have a strategy, but I do agree with you that the 
situation is extraordinarily serious, and that's why we sent 
additional troops, that's why we're asking for additional 
funds, and that's why we want to work with you to fashion a 
bipartisan policy that can be sustained in our national 
security interests. And I welcome comments like yours, although 
I think we could quibble on some of the details of what you 
said.
    Senator Risch. Well, Ambassador, one of the difficulties I 
have is, you like to see a political will amongst the people, 
or a--some willpower, some ``We can get this done.'' And the 
difficulty I'm having is, I'm just wondering whether we have 
enough troops and whether we have enough money to convince the 
general populace in that country that they need to change the 
way they've been living for centuries. And that--you just don't 
hear it.
    Ambassador Holbrooke. Here's an interesting statistic from 
this morning's International Republican Institute, IRI, poll. 
In June 2008, 9 percent of the Pakistani people wanted to 
cooperate with the United States against terrorism. In March, 
the number had gone up to 37 percent. I would wager a great 
deal that today that number is even higher, because there's a 
huge backlash going on against the Taliban.
    Similarly, on the question of democracy, in today's IRI 
poll, 77 percent of the Pakistani people are prodemocracy, but 
81 percent think the country's headed in the wrong direction. 
So, there's a clear indicator of what has to be done. Seventy-
four percent think religious extremism is a very serious 
problem for Pakistan, but the government is not very popular.
    So, I think the ingredients of a strategy are there, but 
the military--the Pakistan military has to take back the west. 
And that's where we are today as we hold this important 
hearing.
    The Chairman. Let me--I'm sorry, go ahead, Senator Risch.
    Senator Risch. No, thank you, Ambassador Holbrooke. Thank 
you, Mr. Chairman.
    The Chairman. I was just going to suggest, Ambassador 
Holbrooke, I think the administration has a tremendous 
opportunity staring it in the face, with these tens of 
thousands of people being displaced as a consequence of Taliban 
excess. There is an opportunity, actually, to provide services, 
much as we did with the earthquake relief, which had a profound 
impact on the perception of America. And I would urge us to 
take advantage of that in the next days, because that can help 
to rapidly change opinion and, in fact, provide you with an 
opportunity we haven't had in Swat, North West Frontier 
Province, et cetera. If we did that, and did it well, it could 
change the game for the government, too, I think. So, I would 
urge that.
    Ambassador Holbrooke. I am--I could not agree more. I'm 
glad you said it in public. Many of us have been saying it for 
the last few days, in private. We are looking for how to act on 
that. And we will----
    The Chairman. Well, I'd bump it----
    Ambassador Holbrooke [continuing]. Carry your----
    The Chairman [continuing]. Into part of the----
    Ambassador Holbrooke. We will----
    The Chairman [continuing]. Supplemental or do something. 
But, I think the administration's got to come up here and seize 
this opportunity----
    Ambassador Holbrooke. We----
    The Chairman [continuing]. The strategy that's been written 
for it.
    Ambassador Holbrooke. I share your view, and I will relay 
your views immediately to the executive, my colleagues.
    The Chairman. Thank you.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    Mr. Ambassador, thank you for appearing today.
    The Chairman. Can I just interrupt you for 1 second?
    Senator Casey. Yes.
    The Chairman. I have President Carter coming in, because 
he's coming to testify to us this afternoon. I need to go to 
meet with him. But, if, Senator Kaufman, you could close out 
again? You're getting good at that. I appreciate it.
    Thank you very much, and I appreciate it.
    And, Ambassador, if we could follow up, perhaps afterward, 
we can detail how we approach some of the issues that have been 
raised here today.
    Ambassador Holbrooke. Thank you, Mr. Chairman, for giving 
us this opportunity to lay out our strategy.
    The Chairman. Thanks so much for coming today. Very 
important. Appreciate it.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    Mr. Ambassador, we're honored by your presence here. I 
didn't realize the first time that you appeared here was 1977. 
Through the work you did in the 1970s, the 1980s, the Dayton 
Accords, and the conversation we have had, you have a great 
sense of the gravity of the challenge, the gravity, in terms of 
our national security ahead of us.
    So, these are difficult issues, but I was struck by a line 
from your written testimony, when discussing the overarching 
priorities of the Kerry-Lugar bill. And I think this one 
sentence sums up why, not only it's a good piece of legislation 
that I and others have cosponsored, but that we need to move 
quickly to get it passed. And I'm quoting, ``By increasing 
economic and educational opportunities, expanding the reach of 
quality health care, reinforcing human rights, particularly 
women's rights, and empowering civil society, life for millions 
of average Pakistanis will improve.''
    Just by way of a statement, a good summation of why we need 
to pass the legislation.
    And then, finally, one other statement, and then I want to 
get to at least one major question. I was struck by a statement 
in yesterday's New York Times story about al-Qaeda and the 
threat posed in Pakistan, by Bruce Riedel--a man you have 
worked so closely with--who led the administration's review of 
the policy. I was struck by the intensity or the gravity of 
this statement. Bruce Reidel said, ``They''--meaning al-Qaeda--
``They smell blood and they are intoxicated by the idea of a 
jihadist takeover in Pakistan.''
    When I read a statement by Bruce Reidel, and the threat 
posed in Pakistan by al-Qaeda, and juxtapose that information 
with the supplemental request for not only the $497 million in 
emergency funds that Department of State has asked for, but 
also with the $400 million requested for the Pakistan 
counterinsurgency capabilities fund asked for Secretary Gates 
and General Petraeus, Secretary Gates noting that these funds 
are needed to be in place by Memorial Day to ensure that we 
don't run out of funding for counterinsurgency prior to 
September 30--when I juxtapose those two, I have to say, we 
need to not only pass the supplemental, but act with a sense of 
urgency and dispatch. This is needed right now.
    I also believe we should attach the same sense of urgency 
to the Kerry-Lugar legislation. I say that by way of--just by 
way of a statement. But--I don't know if you want to add to 
that. And I want to get to a fundamental question.
    Ambassador Holbrooke. Hard to add to answer that. I agree 
with it completely. Thank you for that statement.
    Senator Casey. With regard to what a lot of us know, and 
it's not written about as much, but it underlies all these 
discussions when we talk about just Pakistan for a moment, but 
it obviously affects the strategy for--in both countries--and 
that is India. We know that there is an obsession there with 
regard to the Pakistani military. I think most Americans can 
understand or appreciate some of that obsession. Every country 
has its focus. We had a threat, over many generations, posed by 
the Soviet Union. We understand that.
    But, it's becoming an increasingly difficult problem to 
solve, because if the Pakistani Government and their military 
forces are focused only, or largely, on India, it's going to be 
very difficult to make it work, militarily.
    I ask you this, and I say this as someone who was in all 
three countries last May, and, at one point, sitting with the 
national security adviser of India, I said in reference of 
Iran, ``Look, I know that India has a lot of ties to Iran, and 
I know that you have some--you have strong relationships. But, 
you've got to help us with this nuclear threat posed by Iran.'' 
We've asked a lot of countries, and countries have asked us, to 
set aside, or to move to one side temporarily, a rivalry or a 
concern.
    I ask you this--and I know it's a long lead-up--I ask you 
this with regard to India. Are there steps that India can take, 
in the context of this whole discussion, to help lower the 
temperature or create an environment where Pakistan can ease up 
a little bit, as they have already? I know; they've moved some 
of their military forces from the border, but are there efforts 
that India can undertake, not just on its own, but by our 
urging, that would help, here?
    Ambassador Holbrooke. Senator, I appreciate the question. 
It's of the highest importance. With great respect, since we're 
in the final days and hours of an election in India, where 700 
million people are voting, and since any comment I would make 
might be misunderstood in that context, I would rather just 
simply restrict myself to saying that my job is Afghanistan and 
Pakistan, but at all steps in the process, we keep the Indians 
fully informed. They are not only an interested party, they are 
arguably the interested party, although many other countries, 
including most notably China and Iran, have borders with 
Afghanistan and also have interests.
    But, India's interests are very high. India is the great 
regional power. And I have great personal respect and affection 
for India. And I keep Indian--India--they have a new 
ambassador, who just arrived; I met with her as soon as she was 
in Washington. And we will keep India fully informed. And the 
issues you raise are of great concern to us, but I'd--if you'll 
permit me, I'd like to stop at that point.
    Senator Casey. Ambassador Holbrooke, thank you very much.
    Senator Kaufman [presiding]. Mr. Ambassador, I've made it a 
policy, since I've been here, not to have long statements, but 
to just ask questions, but I think I've got to break that 
policy. Every policy should be broken. I think your patience, 
to listen to my colleagues this morning, has been exemplary. I 
mean, just absolutely exemplary. I think, to sit here and 
criticize what's gone on, the last 8 years, as if you were 
responsible for it, and how much time you and the President 
spent articulating what the plan is in Afghanistan and what the 
plan is in Pakistan, shows patience of Job, frankly, to do it. 
I think it's quite clear what's going on, and that's what I'd 
like to confirm some of this.
    No. 1, we had--in Afghanistan, I don't know how we could 
have a more specific plan in what it is that we're going to be 
doing, in terms of--I agree with the comments about--there 
could be problems with the Taliban and al-Qaeda moving over to 
Pakistan, but we have to go into Helmand and Kandahar provinces 
in order do it, and we have a plan to do it. So, I think the 
plan that you and David Petraeus--and when Ambassador 
Eikenberry gets there--I think we've got the right people on 
the ground, new people on the ground, to do that job.
    Pakistan, I think people are not reading the newspaper the 
last month. I really think that--and I--you know, I just don't 
think they've read what's happened in the Pakistan--I was in 
Pakistan, and it was quite clear to me that there was a sea 
change going on over there. Essentially, in the past we've gone 
to them and said, ``Would you please help us in the FATA areas? 
Would you please help us, because it's in our interest?'' I 
think what's happened in the Swat Valley is, they now 
understand it's in their interest to do this, they now are the 
ones challenged. That is a world-class difference. And to talk 
about Pakistan without realizing or discussing the fact that 
there's been a change of will in the government, I think, just 
doesn't deal with the reality of the situation on the ground.
    So, the first thing I want to say is, my discussions with 
President Zardari and Prime Minister Gilani, I came in with a 
much altered understanding of what their problem is and what 
their will was to actually deal with that problem. Is that a 
fair summation?
    Ambassador Holbrooke. Yes, it is. And I appreciate your 
comments about patience.
    I've testified a lot, and I'm perfectly comfortable 
receiving the views of the people elected by the population to 
represent them. But, what is frustrating, frankly, is to be 
held accountable for a GAO report which I happen to agree with. 
That is--that's a little bit difficult, because we're using 
that GAO report as one of our guides, and because I stopped a 
kind of an automatic pilot. They--when I came into office, that 
was the first issue that came to me, Senator Kaufman, ``Hey, 
we've got--we have this terrible GAO report. We've got to rebut 
it, point by point.'' I said, ``Why? Why should we rebut it? 
Why don't we learn from it?'' And that happened on the second 
day I was in the job. So, I want to put that on the record, 
because we want to work with you.
    And I want to reiterate my strong view that SIGAR, a very 
little-known creation of the Congress, either last year or 
2007, I don't remember when, is a great potential tool for us 
to work together in an organization which is essentially the 
legislative branch's presence in Afghanistan. And if you expand 
its geographic scope or you expand its mandate to help the 
Afghans fight corruption, you will be helping our nation and--
while keeping the separation of powers. I want to respect that, 
because every time I see General Fields, he says, ``I don't 
work for you.'' And I said, ``I know, but we all are 
Americans.'' He's a retired major general. He's a very 
patriotic man. But, I hope you will look carefully at SIGAR.
    Senator Kaufman. The other question is, when I went to 
Pakistan, 3 weeks ago, I was concerned about their will, that 
basically, you know, they had the troops up along the Indian 
border, FATA had never been an area they were concerned about, 
it doesn't really affect them, their lives, it hasn't affected 
them for hundreds and hundreds of years. The people in the FATA 
have further been difficult to control. So, I went with kind of 
a will problem. After the--what occurred in the Swat Valley, I 
became concerned about a capability problem.
    What do you think the capability of the Pakistan military 
to actually deal with the Taliban is and what the Taliban is 
doing now?
    Ambassador Holbrooke. We don't think they have enough 
forces in the west. We've said so publicly. We're glad that 
they're starting to focus on that issue, but it's not enough, 
it's not fast enough.
    Second, their training has been excessively for a 
conventional war against the east, and not enough for 
counterinsurgency.
    Third, the ethnic issue I addressed earlier is a concern.
    Fourth, we think the Frontier Corps deserves much more 
attention, and I think your chairman made it clear he shares 
that view.
    So, we have a lot of work to do here.
    But, I do want to address one point that was stated earlier 
by one of your colleagues. I don't think we're looking at a 
takeover of Pakistan by religious extremists from the Pashtun 
belt. The Pashtun are a minority in Pakistan, and the 
overwhelming majority of people do not want that to happen. It 
would be much more dangerous if the militancy became embedded 
among the Punjabis.
    Senator Kaufman. I traveled up to the FATA and met with 
the--and saw what--the training for the Frontier Corps. How--if 
we appropriate this money, how soon do you think we can 
actually have an effect on the Frontier Corps, expanding the 
Frontier Corps and increasing their training?
    Ambassador Holbrooke. Immediately, because it would be our 
highest priority to get that money through the pipeline and 
into the hands of the Americans and the Pakistanis on the front 
lines in Peshawar and west of Peshawar.
    Senator Kaufman. Finally, I served on the Broadcasting 
Board of Governors for 13 years, and, the answer to your 
question about strategic broadcasting, I can't pass by saying--
without saying we--we have a 71-percent listenership in Iraq to 
Broadcasting Board of Governor broadcasts. We have a 56-percent 
listenership in Afghanistan, and we have about 10 percent in 
Pakistan. The biggest single problem is getting the government, 
which I now think is ready to do it, and you could help, 
allowing us to be on the air on the services--the distribution 
of what our programming is.
    So, I was in the FATA. I know about--we're putting FM 
stations in there. The big problem you're going to find, which 
we found out in Kosovo, we found out in Serbia, is finding 
programming that will really affect the people. We threw away a 
considerable amount of money in Iraq trying to do what I hear 
the Defense Department's trying to do now in Pakistan. You 
might want to go back and see how that worked. And, as I say, 
we've ended up now with a 76-percent broadcasting.
    So, I say--I would look to the Broadcasting Board of 
Governors as a way to--what they're doing, and see how we can 
expand the programming and the distribution in Pakistan.
    Ambassador Holbrooke. Thank you for that. I did not know 
you served on the BBG----
    Senator Kaufman. Yes.
    Ambassador Holbrooke [continuing]. And I'm very pleased to 
hear it. I believe that a meeting is going on right now at the 
White House about this subject. The BBG was in the list of 
items I sent down there to be discussed. What I'd like to do 
is--if you would agree, Senator, would be to send our team up 
here to the Hill to talk to you about how you think we could 
get this going. It's very important. And it also involves Voice 
of America.
    Senator Kaufman. Yes.
    Ambassador Holbrooke. But, in the end, the primary vehicle 
should not be American radio, it should be local radio. But, 
Americans should support it.
    Senator Kaufman. Yes. The problem you're going to find with 
local radio is getting the programming.
    Anyway, thank you very much for your comments.
    And, with that, I will adjourn the hearing today.
    [Whereupon, at 12:14 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


        Responses of Ambassador Holbrooke to Questions Submitted
                         by Senator John Kerry

                          OPERATIONAL EXPENSES

    Question. Is the amount of funding authorized in S. 962 for 
operational and auditing expenses ($10 million per year and $20 million 
per year, respectively) adequate to the expanded scope of the mission? 
If additional resources are required--particularly in the area of 
operating expenses--please provide a detailed explanation of how the 
additional funds will be used. [Note: If any adjustment from the 
figures contained in the bill is deemed necessary by the 
administration, it is very important that this explanation be as 
complete and transparent as possible.]

    Answer. The best way to ensure that the Department of State and 
Mission Pakistan will have the operational and auditing resources for 
administering and implementing Foreign Assistance programs would be for 
Congress to enact the Pakistan FY 2010 request of $76.2 million for 
State operating expenses and the request of $30.8 million for USAID 
operating expenses for Pakistan. We hope that Congress will also move 
expeditiously to approve the FY 2009 supplemental including the 
requested amounts for State and USAID Operating Expenses, as well as 
$806.2 million requested by State for secure and upgraded facilities, 
all of which will enhance the capacity of our diplomatic and 
development efforts in Pakistan.
    That said, the authorization to use up to $30 million of Foreign 
Assistance annually to cover unexpected or incremental operating and 
auditing costs associated with S. 962 would seem sufficient.
    Separately, I reiterate our support for the Special Inspector 
General for Afghanistan Reconstruction (SIGAR). SIGAR is Congress's 
representative on the ground and we would like to see SIGAR deployed in 
every province in Afghanistan to assist with oversight of our 
assistance programs. We value SIGAR and respect its independence. To 
the extent that Congress is willing to expand its mandate and 
responsibilities, I have made clear we would very strongly support 
that.

                  LINKING MILITARY AND NONMILITARY AID

    Question. Do you believe (as advocated by President Obama in his 
championing of the Kerry-Lugar bill, and his cosponsorship of S. 3263 
in 2008) that military aid should be de-linked from development aid--
with development aid as a long-term commitment to the Pakistani people, 
and military aid carefully calibrated to the requirements and the will 
of the Pakistani military? Or do you believe that military and 
nonmilitary aid should be authorized in the same piece of legislation?

    Answer. Our development and security assistance programs are two 
pieces of the same strategic goal--to help Pakistan become a secure, 
stable democratic partner. Both types of assistance are crucial to 
support the people of Pakistan and defeat al-Qaeda and the Taliban. Our 
development assistance and our military assistance must be integrated 
and complementary.
    I agree that development aid should be a long-term commitment to 
the Pakistani people. Development programs to enhance Pakistan's 
capacity to provide improved health, education, and other basic 
services to the Pakistani people will require patience and commitment 
to have an impact. Our military assistance to Pakistan demonstrates our 
long-term commitment to helping Pakistan confront the threat of 
terrorism and extremism. Both are necessary tools but should not be 
limited by being inappropriately tied together.
    The question of whether authorization for development and military 
aid should be in the same piece of legislation is for Congress to 
determine.
    What we seek is the flexibility to be able to apply the appropriate 
resources at the appropriate time depending on specific needs or unique 
opportunities.

                     LEVELS OF MILITARY ASSISTANCE

    Question. Do you believe that the level of military assistance 
channeled through the State Department should be locked in place now 
for the next 5 years, or (as advocated by President Obama in his 
championing of the Kerry-Lugar bill, and cosponsorship of S. 3263) that 
it should be authorized on an annual basis, depending on the actions, 
needs, and commitment of the Pakistani military?

    Answer. The President expressed support for the Kerry-Lugar bill as 
originally proposed. Both Afghanistan and Pakistan perceive the United 
States as having previously abandoned them during their times of need 
and so it is important that our military assistance to Pakistan 
demonstrate our long-term commitment to helping Pakistan confront the 
threat of terrorism and extremism, and also include mechanisms to 
maximize effectiveness.
    The situation on the ground in Pakistan is quite fluid, with the 
needs of the Pakistani military evolving with its response to the 
threat posed by insurgents. Locking in specific levels of authorized 
military assistance would limit our flexibility in response to the 
situation on the ground. A strategic commitment to provide ongoing 
assistance is, however, important.

    Question. Do you believe that the Pakistani military will be more 
cooperative with U.S. efforts or less cooperative if they know that 
they will receive exactly the same military aid authorization every 
year for the next half-decade, regardless of their actions?

    Answer. Again, year-to-year authorization levels are appropriate to 
the fluid nature of the security situation in Pakistan. However, a 
strategic commitment to provide ongoing assistance is important. That 
said, better cooperation with Pakistan is not contingent exclusively on 
funding levels, but also depends on building relationships and breaking 
down misconceptions. These efforts help overcome the trust deficit and 
help Pakistan follow through on the changes needed to confront our 
common threat.

                   LIMITATIONS ON MILITARY ASSISTANCE

    Question. Do you consider the limitations on military assistance 
contained in section 6 of S. 962 (and the waivers provided) to be a 
reasonable compromise between setting no conditions on security aid and 
setting overly restrictive limitations on such assistance?

    Answer. We agree with Congress that an increase in security 
assistance for Pakistan should take into account Pakistan's progress in 
preventing al-Qaeda and other terrorist groups from operating in 
Pakistan and using Pakistan as a safe haven to launch attacks. We are 
committed to providing Pakistan with the assistance it needs to wage 
the counterinsurgency campaign, as long as its concerted efforts toward 
these goals continue.
    While we are committed to accountability and partnering with the 
Congress in our efforts to ensure that assistance is used effectively 
and is making progress, we appreciate ensuring that flexibility be 
preserved to provide economic assistance, as needed, on a continuous 
basis, and also appreciate efforts to facilitate the accountability as 
well as flexibility with regard to furnishing military assistance.

    Question. What do you think would be the impact of conditioning 
military aid on issues of great political sensitivity in Pakistan, such 
as F-16 transfers and the fate of A.Q. Khan? What would be the impact 
of providing the President with only a highly restrictive level of 
waiver (``vital to the national security'')?

    Answer. Our security assistance to Pakistan, which has included 
support for Pakistan's F-16 program, is a tangible symbol of the United 
States-Pakistan relationship. Pakistan cannot regain control of its 
border region absent a robust counterterrorism and counterinsurgency 
capability, which includes the use of a targeted close air support 
capability. Upgraded F-16s, in conjunction with appropriate training, 
provide Pakistan with this capability. Thus, overly restrictive 
conditionality on military aid to Pakistan could compromise our efforts 
to assist the Government of Pakistan as it seeks to dismantle terrorist 
networks in Pakistan. The highly restrictive waiver of ``vital to the 
national security'' would limit the President's authority and 
flexibility.
    However, we are not considering the use of additional foreign 
military financing (FMF) for the Pakistan F-16 program at this time. To 
date, the Government of Pakistan is current on its F-16 payments for 
the new aircraft and for related weapons systems.
    Regarding A.Q. Khan, we believe that conditionality of military aid 
would not be an effective or appropriate means of influencing the fate 
of A.Q. Khan. We appreciate Pakistan's efforts in shutting down the 
proliferation network led by A.Q. Khan as well as the cooperation 
Pakistan has provided the United States and the IAEA to investigate the 
Khan network. Key people involved with the network have been put out of 
business or are facing prosecution. We believe diplomatic means are a 
more effective tool in this case.

   EFFECTIVENESS OF U.S. AID: ENSURING WE DO NOT REPEAT MISTAKES OF 
                              AFGHANISTAN

    Secretary Clinton has been forthright about the unacceptable levels 
of waste and mismanagement in United States aid to Afghanistan over the 
past 7 years. Critics charge that USAID's contracting system relies too 
much on private contractors, there is a tendency for measuring outputs 
instead of outcomes, security restrictions distance U.S. aid 
practitioners from the locals they hope to support, and development 
projects often do not fit into a larger, comprehensive strategy. For 
both Afghanistan and Pakistan, concerns have been raised about the 
absorptive capacity and security challenges--particularly (in Pakistan) 
in the Federally Administered Tribal Areas, and parts of Baluchistan 
and NWFP.

    Question. Given the Secretary's concerns, how will the 
administration assure us that a tripling of nonmilitary aid to Pakistan 
will be well spent and directly used to serve the interests of the 
Pakistani people?

    Answer. I have committed to reviewing every USAID contract and 
program in Afghanistan and Pakistan to ensure that our reinvigorated 
assistance is aligned with the President's new strategy and that 
assistance is reaching the Afghan and Pakistani people, instead of 
foreign contractors. USAID is revisiting its operational models and 
hiring additional staff in Afghanistan and Pakistan to implement much 
larger development assistance programs. Specifically, USAID is expected 
to increase staffing in Pakistan, as well as support staff in 
Washington, to allow more rapid and effective implementation of 
assistance, by permitting USAID to effectively manage greater numbers 
and larger development assistance programs. The State Department will 
also boost support staff, primarily in Washington, in order to increase 
its reporting and coordination capacity for Pakistan.
    USAID has designed a monitoring and evaluation (M&E) system 
specifically for the nonpermissive environment in the frontier region, 
which can be applied to other parts of the country. USAID's M&E system 
uses overlapping, multitiered checks and balances which reinforce the 
Government of Pakistan's (GOP) own M&E efforts. The system utilizes a 
range of actors including local program staff, GOP interlocutors at the 
FATA Secretariat, community members, and independent monitors to follow 
the process from project development through implementation to provide 
overlapping layers of oversight. Oversight feedback is provided back to 
U.S. personnel and implementing partners from a variety of sources 
allowing them to identify and verify where there might be issues.

    Question. How will the administration use the funds for nonmilitary 
assistance to Pakistan--as laid out in the Kerry-Lugar bill (S. 962)? 
Please be as specific as possible.

    Answer. Nonmilitary assistance funds will go to a wide array of 
projects. These include: Law enforcement reform, training, and 
equipment provision; law enforcement aviation support; judicial reform; 
antimoney laundering efforts; counternarcotics alternative development 
projects; interdiction; and drug demand reduction programs. In terms of 
governance and human rights projects, we will: Educate the public about 
and develop Election Commission of Pakistan adjudication procedures; 
build the capacity of the independent media; increase voting and civic 
participation among women; consult residents of the FATA on their 
political future; train journalists in the FATA, NWFP and Balochistan; 
and combat gender-based violence.
    USAID assistance will focus on: Rehabilitation of water and 
irrigation systems, bridges, roads, markets, health clinics and 
schools; improving rural electrification/power distribution; 
strengthening health and education services; improving community 
infrastructure; providing job skills training; and generating 
employment.
    For areas where poverty, disease, and unemployment are creating 
breeding grounds for radicalism, we will improve the Pakistani 
Government's ability to provide basic services, fair and efficient 
governance to its citizens, and economic opportunities for young 
people--all of which increase satisfaction with civilian government and 
decrease the appeal of extremist groups.
    We will target agricultural interventions at both unstable and 
vulnerable areas. Programs will help small producers organize into 
groups which will be integrated into commercial value chains generating 
substantial income gains. We will make women's participation a priority 
in all agricultural activities. Our priority goals in basic education 
are to dramatically increase access to schools, significantly raise 
chronically low enrollment rates, especially for girls, and improve 
educational quality. We will dramatically strengthen primary health 
care services, concentrating on priority geographic areas. A focus will 
be placed on maternal and child health, and prevention and treatment of 
major infectious diseases, including tuberculosis, malaria, and HIV/
AIDS.

                          DISPLACED CIVILIANS

    The latest wave of violence in the Swat Valley is expected to 
displace up to 800,000 people--which would put the total number of IDPs 
in the North West Frontier Province at 1.3 million people. As you noted 
at the hearing, the U.S. Government may have an opportunity to 
demonstrate our commitment to the Pakistani people by stepping up our 
humanitarian efforts: Such as the humanitarian aid following the 
Kashmir earthquake of 2005 was seen as a vital sign of friendship and 
support.

    Question. What is the U.S. humanitarian response in terms of 
financial and human resources? What additional resources do you 
envision bringing to the table in the near future--and would the 
funding authorized by S. 962 facilitate such efforts?

    Answer. We are closely following developments in conflicts around 
the world. Based on current assessments, our budget request includes 
the funding needs we anticipate for FY 2010. The United States is 
building the Government of Pakistan's capacity to respond immediately 
to the growing crisis by providing direct assistance, supporting the 
local economy through indirect purchases and helping the Pakistani 
Government publicize its ability to protect its own citizens. As 
Secretary Clinton has frequently noted, we are continuously reassessing 
the need for additional assistance and will help lead diplomatic 
efforts to encourage greater international assistance for Pakistanis 
displaced during the crisis.
    We have already mobilized several agencies and bureaus to respond 
to this crisis. USAID has deployed a six-person Disaster Assistance 
Response Team to Pakistan to lead our efforts on the ground. In FY 2008 
and to date in FY 2009, the Office of U.S. Foreign Disaster Assistance 
(OFDA) has provided nearly $60 million in humanitarian assistance to 
conflict-affected populations in Pakistan. USAID/OFDA is supporting 
health, nutrition, humanitarian coordination and information 
management, economy and market systems, risk reduction, shelter and 
settlements, and water, sanitation, and hygiene interventions, as well 
as the provision of relief supplies and logistical support. To date in 
FY 2009, USAID's Office of Food for Peace has provided 39,670 MT of 
Public Law 480 Title II emergency food assistance, valued at more than 
$36 million, to World Food Programme (WFP) emergency operations. USAID 
has also provided 20 generators and 20 transformer sets for pumping 
water and providing lighting.
    The Bureau of Population, Refugees, and Migration (PRM) has 
contributed $14.6 million to address the crisis, in addition to over 
$50 million in regional humanitarian assistance, with additional 
contributions to follow. State/PRM contributions to the United Nations 
High Commissioner for Refugees and the International Committee of the 
Red Cross support camp management, protection, shelter, water and 
sanitation, and health interventions conducted by these two 
organizations. In response to State's request for assistance, DOD 
approved $10 million in aid and dispatched three C-17 flights to 
deliver 50 tents and 120,000 halal meals to Islamabad. U.S. Central 
Command purchased 2 water trucks, 50 environmental control units for 
tents, and 25 generators. To bolster the U.N.'s capabilities to 
coordinate the aid effort, Ambassador Rice is urging senior U.N. 
officials to deploy a permanent humanitarian coordinator. The State 
Department has also spearheaded a campaign for donations from the 
international community.
    Due to the ongoing military operations we do not have a full damage 
assessment and rebuilding estimate. We are continuing to monitor the 
situation and are in constant consultations with the Pakistani 
Government and donor countries. The displaced population could reach 3 
million or more should the Pakistan military proceed with operations in 
Waziristan, as they have stated they will do in the coming weeks. Our 
response to this humanitarian crisis will require significant 
resources.

    Question. What is the administration doing to ensure that the 
Government of Pakistan is taking every precaution to minimize civilian 
casualties and displacement?

    Answer. The Department of State and the Department of Defense have 
strongly urged the Pakistan military to avoid civilian causalities. We 
are developing a longer term assistance package to help facilitate the 
``build'' and ``hold'' phases. Pakistani political and military 
officials have repeatedly assured us that holding areas and 
facilitating reconstruction so that people displaced during this crisis 
can return home is a top priority.
    Relatedly, the Pakistani Government has attempted to mitigate 
civilian casualties by encouraging the population in affected areas to 
evacuate their homes prior to commencement of operations. Also, the 
Pakistan military has taken the lead to provide relief support with the 
appointment of Lt. Gen. Nadeem Ahmad and his use of 1st Corps as the 
command element for humanitarian operations.

    Question. In recent months, we have seen a growing number militant 
attacks on law enforcement targets, including the April 5 bombing in 
Chakwal, the seizure of the police academy on the outskirts of Lahore, 
and the ambush on the Sri Lankan cricket team and its police escort in 
Lahore. The primary victims of these attacks were Pakistan's 
undermanned and underequipped police, a militant strategy that appears 
designed to expose state institutions as weak. I am particularly 
concerned about the Pakistani police and have allocated up to $100 
million in the Kerry-Lugar bill (S. 962) for police reform, equipping, 
and training.

  <bullet> What type of strategy would the administration pursue to 
        help the Pakistani Government enact serious and comprehensive 
        reform of the police and law enforcement agencies? How much 
        money and time will it take?

    Answer. Supporting civilian law enforcement and security 
organizations is critical to our comprehensive strategy to support 
Pakistan's counterinsurgency efforts; this is particularly the case as 
conflict has spread from tribal areas to settled areas of the North 
West Frontier Province (NWFP) and cities across Pakistan. We must 
assist in ensuring that the police have the tools to detect, 
investigate, and arrest insurgents and build their abilities to deter 
and, where necessary, confront and defeat these elements. The 
Department of State's Bureau for International Narcotics and Law 
Enforcement Affairs (INL) FY 2010 budget request reflects our growing 
support for the important role of civilian law enforcement, 
representing more than five times the FY 2009 INCLE request.
    Moving forward, we have several ongoing law enforcement assistance 
programs that we seek to expand. The first is INL's Law Enforcement 
Reform program, which was established in 2002 and has trained over 
8,000 law enforcement officers nationwide in a variety of law 
enforcement competencies, including management, investigations, human 
rights, and tactical training in improvised explosive device 
recognition, post-blast investigation, and civil disturbance 
management. This year, new courses will be added in crime and 
intelligence analysis, police command and control, and police 
communications management.
    If approved, INL's FY 2009 supplemental and FY 2010 funding 
requests will advance efforts to build more capable police and SWAT-
like capabilities in the most vulnerable areas, starting with the NWFP 
Police Elite Force and continuing in Balochistan. This training and 
equipping effort aims to prepare these forces to prevent and respond to 
the types of contingencies they face on a routine basis, including 
suicide bombings, improvised explosive device detonations, kidnappings, 
and targeted killings.
    To serve as a force multiplier, INL seeks to increase its 
helicopter fleet to help civilian security elements under Ministry of 
Interior (MOI) authority, including provincial police and the Frontier 
Corps, to conduct surveillance, reconnaissance, resupply, and transport 
of law enforcement personnel to remote areas quickly and safely. 
Additional air assets will allow MOI personnel to more efficiently 
launch operations that support the ``hold'' mission of law enforcement 
in areas along the border with Afghanistan. The operational tempo of 
INL's air assets in 2008 and early 2009 was the highest in the history 
of the INL aviation program in Pakistan and will continue to increase 
as law enforcement capabilities improve.
    While improving the capabilities and equipment of law enforcement 
personnel is of critical importance, public trust in the police must 
also be addressed. We are currently consulting with the Government of 
Pakistan on proposals for pilot projects that can improve the delivery 
of policing services and improve public perception of civilian law 
enforcement. The administration has requested $155.2 million in FY 2010 
INCLE in order to address these challenges.

                     COALITION SUPPORT FUNDS (CSF)

    Question. Congress has appropriated billions of dollars in CSF to 
reimburse Pakistan and other countries for their operational and 
logistical support of U.S.-led counterterrorism operations. Much of 
this money appears to have gone for purposes other than those intended 
by Congress, and this committee has yet to receive a full and current 
information on the CSF program.

  <bullet> Do you consider existing oversight and accountability 
        procedures for Coalition Support Funds to be adequate?
  <bullet> Will you insure that this committee is, in future, given 
        full access (in classified or unclassified form) to all 
        documents necessary to understand and evaluate the 
        effectiveness of the CSF program in Pakistan?
  <bullet> In rough terms, what percentage of CSF payments over the 
        past 7 years have reimbursed costs incurred in the battle 
        against al-Qaeda and the Taliban, as opposed to other missions 
        of the Pakistani military or redirection to the general budget?

    Answer. Coalition Support Funds are administered by the Department 
of Defense (DOD). DOD would be in a better position to provide specific 
details regarding CSF procedures.

          IMPROVING PAKISTAN'S COUNTERINSURGENCY CAPABILITIES

    The administration has requested $400 million for PCCF in the FY09 
supplemental to build the capacity of Pakistan's security forces to 
combat insurgents in Pakistan. The traditional State Department-guided 
security assistance framework has built up protections to prevent the 
supply of U.S. arms and training to military forces that have engaged 
in human rights violations, to help ensure that the system is not 
abused by bribery or other procurement irregularities, and to prevent 
the diversion of equipment to unauthorized recipients. Many of the 
purchases envisioned for the PCCF seem compatible with that traditional 
security assistance framework.

    Question. What are the specific constraints imposed by the 
traditional security assistance framework that would hinder the work 
you think is needed in Pakistan?

    Answer. The Pakistan Counterinsurgency Capability Fund (PCCF) was 
not requested because of specific constraints on the security 
assistance framework, but rather to address the exceptional situation 
in Pakistan where there is an urgent need to allow the Combatant 
Commander to accelerate, enhance, and resource Pakistan's 
counterinsurgency operations and capabilities.

    Question. If PCCF is routed through the Department of Defense 
(either for 1 year, or longer), what steps will you take to ensure that 
the safeguards of the traditional security assistance framework are 
used to prevent predictable problems from arising in the PCCF?

    Answer. State and DOD have a strong, longstanding relationship as 
DOD is the executive agent for State's security assistance programs. 
The implementation of PCCF will build upon this framework. PCCF 
requires Secretary of State concurrence and both State and DOD are 
committed to working closely together to ensure that this concurrence 
is exercised in a meaningful and substantive way.

                        COMMUNICATIONS STRATEGY

    You noted the need for a communications strategy, particularly in 
FATA and parts of Baluchistan and NWFP.

    Question. Do you feel that there is a role for the Broadcasting 
Board of Governors' services, such as VOA and RFE/RL in Pakistan? If 
so, what is that role, and how are you cooperating with the BBG to 
incorporate their broadcasting services into your overall strategy in 
Pakistan? Do you feel that BBG is sufficiently resourced to accomplish 
the mission?

    Answer. Winning the information war is critical to the success of 
our overall effort. To that end, I am working closely with General 
Petraeus, Ambassador Eikenberry, and my interagency team here in 
Washington to overhaul our strategic communications efforts and form a 
fully integrated, civilian-military effort that will broadcast our 
message.
    BBG's services have an important role to play in Pakistan. Along 
the Afghanistan-Pakistan border, where the scope of government and 
commercial radio broadcasts is extremely limited, and where extremist 
groups actively utilize the airwaves to propagate their message, 
developing credible, accurate, moderate broadcast alternatives is 
essential. The BBG and the State Department have cooperated in 
organizing a series of strategic communications research seminars on 
Afghanistan and Pakistan, and the BBG participates in interagency 
strategic communication planning sessions.

    Question. Please provide as much detail as you wish on the 
communications strategy you envision, particularly in the areas of 
provision of cell phone coverage, radio broadcasting (equipment vs. 
content), and possible distinctions between activities traditionally 
conducted by the State Department (public diplomacy) vs. those 
conducted by the military or intelligence agencies (jamming of hostile 
broadcasts).

    Answer. We must undertake a major new integrated civilian-military 
program on strategic communications in Afghanistan and Pakistan. Three 
simultaneous projects are essential: We must redefine our message; we 
must connect to the people on the ground through cell phones, radio, 
and other means; and we must identify and support key communicators who 
are able, through local narratives, to counter the militants' fear-
mongering, propaganda and information domination. Additional personnel 
and structures in Kabul and Islamabad/Peshawar are essential.
    Mobile phones are a vital tool for counterinsurgency and a mobile-
equipped population is one that can be more effectively engaged and 
empowered to circumvent and challenge the militants. In FATA, we must 
push for greater cell phone penetration throughout the different 
agencies.
    Radio is a particularly effective means of reaching tribal 
populations because it is the most pervasive media. We propose to: (1) 
Expand radio production capacity through a training and on-the-job 
mentoring program for local radio staff members; (2) support locally 
developed, cross-border radio programming; (3) help to develop 
community-based radio stations; (4) establish public-private 
partnerships; and (5) develop programming that fosters interaction and 
participation.
    Broad interagency participation will be key to developing and 
implementing our communications strategy. In April, we cohosted with 
DOD an interagency meeting attended by over 50 representatives from 
State, DOD, USAID, and the intelligence community, to discuss current 
strategic communication activities within Afghanistan and Pakistan, and 
the urgent need for a comprehensive and coordinated Strategic 
Communications plan for the region. It is also vital that we bring in 
experts and engage the private sector. We are actively engaged with a 
variety of partners.
    We are currently in the process of identifying resources for these 
various elements in support of our strategy and will remain in close 
consultation with the Congress on this effort.
                                 ______
                                 

    Responses of Ambassador Richard Holbrooke to Questions Submitted
                        by Senator Richard Lugar

LEGISLATION--S. 962, THE ENHANCED PARTNERSHIP WITH PAKISTAN ACT OF 2009

    Question. You stressed on several occasions during your testimony 
the administration's strong support for the Kerry-Lugar legislation, S. 
962.

  <bullet> How does S. 962 specifically support or encumber U.S. policy 
        initiatives and goals in Pakistan and in the region?

    Answer. This legislation's authorization of $1.5 billion in foreign 
assistance to Pakistan, every year for 5 fiscal years, underscores our 
long-term commitment to Pakistan and its people. Many Pakistanis 
believe that the United States is not a reliable long-term partner and 
will abandon Pakistan after achieving our counterterrorism objectives. 
Our engagement has to be aimed at building a long-term strategic 
partnership and must be conducted in a way that respects and enhances 
the Pakistani people's pursuit of a prosperous economy, a stronger 
democracy, and a vibrant civil society. If enacted, S. 962 would be a 
critical demonstration of our commitment.
    The Kerry-Lugar legislation's emphasis on economic and governance 
challenges reinforces a key aspect to the President's new strategy on 
Afghanistan and Pakistan. By increasing economic and educational 
opportunities, expanding the reach of quality health care, reinforcing 
human rights--particularly women's rights--and empowering civil 
society, we will increase the opportunities for millions of Pakistanis 
to improve their lives.
    The administration shares Congress's concern that security 
assistance for Pakistan must show results. As the President has noted, 
``We must focus our military assistance on the tools, training, and 
support that Pakistan needs to root out the terrorists'' but ``we will 
not, and cannot, provide a blank check.'' Pakistan must demonstrate its 
commitment to rooting out al-Qaeda and the violent extremists within 
its borders.
    We are committed to accountability and partnering with the Congress 
in our efforts to ensure that assistance is used effectively and is 
making progress. At the same time, we appreciate ensuring that 
flexibility be preserved to provide economic assistance, as needed, on 
a continuous basis, and also appreciate efforts to facilitate the 
accountability as well as flexibility with regard to furnishing 
military assistance.

                 STRATEGIC REVIEW AND OPERATIONAL PLAN

    Question. Our legislation expects a fulsome operational plan for 
Pakistan and the cross-border region with Afghanistan to follow from 
the President's important ``strategic review.'' This plan has certainly 
been under consideration since at least late last year given the Biden-
Lugar Pakistan legislation introduced in July 2008 authorizing $1.5 
billion a year over 5 years in foreign assistance.

  <bullet> When will the administration provide Congress with a broad, 
        coherent, operational strategy for our engagement with 
        Pakistan, which utilizes all of our foreign policy tools and 
        provides a clear delineation of goals and expectations over 
        time?
  <bullet> The committee looks forward to the report you said you would 
        provide on all intended allocations associated with the new 
        policy approach to Pakistan. This will serve to inform Senators 
        of a part of the operational plan as it is defined by 
        allocations.

    Answer. The Strategic Review approved on March 27 articulates not 
only the administration's core goal in Pakistan and Afghanistan--to 
disrupt and dismantle
al-Qaeda and its safe havens, and prevent its return to either 
country--but also our supporting objectives and recommendations for 
action. Congress has been fully briefed on the review.
    Through an interagency process, we are also developing 
comprehensive measures of effectiveness, which establish goals in 
Pakistan over time and indicators of our progress toward those goals. 
This process will be completed soon, at which time we will be pleased 
to brief Members of Congress.
    To match our resources to our goals and objectives, we will provide 
the Congress a report--as you note--on all intended allocations 
associated with the new policy approach to Pakistan. The report will 
delineate how these allocations support our overarching objectives.

               ECONOMIC ASSISTANCE AND 25 DISTRICTS PLAN

    Question. Our legislation is intended to provide the Obama 
administration with the flexibility to add significant new economic 
assistance for Pakistan in order to enhance our bilateral partnership 
over the long term. Pakistan remains one of the poorest countries in 
the world and is confronting a daunting security threat.

  <bullet> How will the bulk of the proposed assistance be used? What 
        sectors will be prioritized?

    Answer. Our economic assistance strategy for Pakistan focuses on 
areas where poverty, disease, and unemployment come together to create 
breeding grounds for radicalism. We are focused on improving the 
Pakistani Government's ability to provide basic services, fair and 
efficient governance to its citizens, and economic opportunities for 
young people--all of which are intended to increase satisfaction with 
civilian government and decrease the appeal of extremist groups.
    Our programs are designed to provide agricultural assistance to 
both unstable and vulnerable areas. Programs will help small producers 
organize into groups that will be integrated into commercial value 
chains generating substantial income gains. We are also making women's 
participation a priority in all agricultural activities.
    Our economic development assistance will focus on providing job 
skills training; generating employment; rehabilitating water and 
irrigation systems, bridges, roads, and markets; improving rural 
electrification/power distribution; and improving community 
infrastructure.
    In basic education, our priority goals are to dramatically increase 
access to schools, significantly raise chronically low enrollment 
rates, especially for girls, and improve educational quality.
    Our priority in health is to strengthen primary health care 
services, concentrating on priority geographic areas. A focus will be 
placed on maternal and child health, and prevention and treatment of 
major infectious diseases, including tuberculosis, malaria, and HIV/
AIDS.
    In terms of governance and human rights projects, we will: Educate 
the public about and develop adjudication procedures for the Election 
Commission of Pakistan; build the capacity of the independent media; 
increase voting and civic participation among women; consult residents 
of the Federally Administered Tribal Areas (FATA) on their political 
future; train journalists in the FATA, North West Frontier Province 
(NWFP) and Balochistan; and combat gender-based violence.
    Finally, our rule-of-law programs will focus on: Law enforcement 
reform, training, and equipment provision; law enforcement aviation 
support; judicial reform; antimoney laundering efforts; 
counternarcotics alternative development projects; interdiction; and 
drug-demand reduction programs.

    Question. Describe the intended regional plan, focused on some 25 
districts, associated with your strategy.

    Answer. Pakistan's needs exceed the capacity of even a 
significantly expanded U.S. assistance program. We intend to focus U.S. 
assistance on critical needs in specific geographic locations with the 
greatest poverty levels, making them most vulnerable to militant and 
extremist recruitment. Affected districts are in the North West 
Frontier Province, southern Punjab, northern Sindh, Baluchistan, and 
the city of Karachi, as well as the Federally Administered Tribal 
Areas.
    We will provide assistance to unstable areas where there is active 
conflict with militants and vulnerable areas of extreme poverty and 
lack of opportunity that are fueling the growth of extremism. It will 
target the short- and medium-term needs of local communities, using 
quick-disbursing assistance linked to local governments. Assistance 
will involve local leaders and community organizations and include 
activities such as: Rehabilitation of water and irrigation systems, 
bridges, roads, markets, health clinics and schools, providing job 
skill training, and generating employment.
    In vulnerable areas where poverty, disease, and unemployment are 
creating a breeding ground for radicalism, we will strengthen the 
Government of Pakistan's ability to provide basic services, fair and 
efficient governance to its citizens, and economic opportunities for 
young people. All these activities are intended to increase 
satisfaction with civilian government and decrease the appeal of 
extremist groups.

    Question. How will U.S. assistance be used in a cross-border 
strategy to effectively engage homogenous populations on both sides of 
the Pakistan-Afghanistan border?

    Answer. We strongly believe that a cross-border program is merited 
and necessary to carry out elements of the ``one-theater'' approach 
outlined in the President's Afghanistan-Pakistan strategy. Such funding 
would allow us to plan regional development projects without being 
limited by the political boundary between the two countries.
    The following are examples of areas that could be targeted with 
this funding:

  <bullet> Border crossing points/transit corridors;
  <bullet> Bilateral exchanges (i.e., government, educational, 
        vocational, sporting, media, and cultural programs, etc.);
  <bullet> Joint capacity-building exercises;
  <bullet> Trans-boundary humanitarian assistance for refugees;
  <bullet> Cross-border infrastructure (i.e., roads, irrigation/water, 
        power, telecommunications, rail, etc.);
  <bullet> Health initiatives (i.e., polio eradication, etc.).

    In order to effectively implement a cross-border program that 
reflects a unique ``one theater'' approach, we would require adequate 
funding with adequate flexibility.

            NUNN-LUGAR AND PAKISTAN WMD SECURITY COOPERATION

    Question. In a May 9, 2009, Washington Post article, President 
Zardari indicated that no one in the U.S. Government had asked him for 
more information about the location and security of Pakistan's nuclear 
arsenal. Given the evident concerns surrounding Pakistani stability and 
the limited effectiveness of the Pakistan military in counterinsurgency 
and counterterror operations, our cooperation in this area would appear 
to be an easy prospect for bilateral cooperation.

  <bullet> What is the status of United States efforts with Pakistan on 
        strengthening security cooperation?
  <bullet> What funds has the administration requested in the 
        supplemental or FY 2010 budget request to further assist 
        Pakistan in securing the storage and accountability for its 
        WMD?
  <bullet> What assurance can you provide the Congress that Pakistan 
        WMD elements and systems are secure from capture or control by 
        militants?

    Answer. Pakistan's security forces are professional and highly 
motivated. They understand the importance of nuclear security and it is 
our understanding that they have taken significant steps to enhance it.
    We welcome Pakistan's efforts in this area. The President has said 
that he feels confident that Pakistan's nuclear arsenal will remain out 
of militant hands.
    The United States has provided assistance for these purposes, with 
the full cooperation of the Government of Pakistan. I cannot comment 
further on the details of this assistance in an unclassified setting.

    Question. As the Special Representative for Afghanistan and 
Pakistan you control a significant number of resources and personnel on 
a limited time basis. It is important that the skills and mechanisms 
essential to effective USG response in emergent and ongoing crises 
globally are retained in the standing institutional structures at the 
State Department and USAID, as elsewhere, over the long term. It is 
also critical to exercise and build the capacity within our agencies to 
be more responsive and ensure efficiency.

  <bullet> How will you ensure that your office does not make the 
        mistake of so many previous offices on ad hoc assignments by 
        building a parallel, one of organization in response to your 
        mission?
  <bullet> How do you intend to integrate your office's work with 
        existing State Department and USAID programs and offices 
        directed toward Pakistan and Afghanistan?
  <bullet> What steps does the Department plan to take to ensure that 
        expertise and resources committed to your office are integrated 
        into the Department's permanent structures for responding to 
        global crises?

    Answer. My office is not a permanent organization, but rather is 
designed to respond to a unique foreign policy and national security 
challenge at a time of heightened engagement. I have been directed by 
the President and Secretary of State to lead a coordinated, civil-
military effort to achieve our goals in Afghanistan and Pakistan. To do 
so, I have brought together experienced civil servants, Foreign Service 
officers, Intelligence officers, military officers, and well-known 
outside experts to create one unified team. My staff consists of senior 
representatives from the State Department, U.S. Agency for 
International Development, Department of Defense (Joint Staff and 
Office of the Secretary of Defense), Department of Agriculture, 
Department of Justice, the Intelligence Community and other agencies. 
They serve as key conduits to their home agencies and ensure that we 
remain connected and coordinated on an hourly basis. Virtually all have 
extensive field experience, including working closely with our military 
counterparts in various settings. Our outside experts provide essential 
advice and also help keep us connected to the NGO, think tank, and 
academic communities.
    Far from a parallel organization, my office is fully integrated 
with key, permanent offices of the State Department and other agencies. 
My deputy, Paul Jones, is dual-hatted position both as the Deputy 
Special Representative for Afghanistan and Pakistan and also as the 
Deputy Assistant Secretary for Afghanistan and Pakistan. In this way, 
he serves as a critical coordination point between my office, the 
Afghanistan and Pakistan desks in the Bureau of South and Central Asian 
Affairs, and other offices in the State Department that work on aspects 
of the Afghanistan-Pakistan challenge. Additionally, we recently 
requested and received approval for five new Foreign Service officer 
positions on each of the Afghanistan and Pakistan desks.
    This new interagency model has already delivered excellent results. 
In numerous situations, we are able to move quicker and have better 
access to top level of multiple government agencies than if we were not 
collocated. We will continue to apply this whole-of-government approach 
to contingencies and our daily work, and we look forward to additional 
agencies--including Treasury and Homeland Security--sending 
representatives.
    This is the most diverse team of experts that I have worked with 
during my government career and its agility in implementing policy will 
be critical to delivering the results that I know the President and 
Congress expects.
     office of the coordinator for reconstruction and stabilization
    Question. The resources your office employs include civilians 
deploying to Afghanistan and Pakistan. Your staff has indicated that 
your office will coordinate such civilian deployment.

  <bullet> How are you utilizing the longstanding, albeit still 
        growing, capacity within the State Office of the Coordinator 
        for Reconstruction and Stabilization?

    Answer. S/CRS recently helped establish the Integrated Civilian 
Military Action Group (ICMAG) at Embassy Kabul. It facilitates joint 
planning and problem-solving at the national level and across specified 
lines of operation (e.g., rule of law), and also helps develop 
integrated civil-military guidance at the regional, provincial, and 
district levels. Through the ICMAG structure and processes, S/CRS 
planners have helped enable a whole-of-government approach. S/CRS also 
played a role in developing civil-military predeployment training for 
Regional commands, Brigade task forces, and PRTs. Further, newly 
offered courses offered at the Foreign Service Institute in Foundations 
of Reconstruction and Stabilization, hostile environments (security and 
medical), and whole-of-government planning for the Civilian Response 
Corps will provide additional training opportunities for personnel 
going to Afghanistan.
    At my request, S/CRS has fielded an interagency team--led by 
Ambassador Tim Carney--to support the Afghan Government's efforts to 
conduct free and fair elections in August.
    The CRC ``active component'' will have over 100 interagency members 
by summer 2009, and by 2010 will become fully staffed at 250 with an 
additional 1,000 Standby Corps members identified from within the USG. 
I have asked that the CRC contribute to the civilian increase by 
nominating well-qualified individuals to serve for 1 year in the field. 
As the CRC grows, I expect its personnel to be in a position to support 
the significant increase in civilian deployments required for 
Afghanistan over the next few years to further ensure the whole of 
government planning, assessment and field operational capabilities 
required.

    Question. How do you intend to build S/CRS institutional capacity 
for the long term?

    Answer. The Secretary is committed to supporting the development of 
the Civilian Response Corps and to ensuring S/CRS has the capacity to 
provide core staff to key planning efforts for reconstruction and 
stabilization operations. S/CRS is able to provide support to regional 
bureaus and embassies with additional, trained personnel who can 
augment regional knowledge with planning and conflict specialties and 
who can assist in the management of coordination with the full range of 
USG actors required in R&S operations. This capacity is available to 
support Washington-based planning and operations management as well as 
field deployments.
    This capacity is online and available and has been utilized in a 
range of operations including Sudan, Haiti, Kosovo, and Afghanistan. It 
is not in competition with the implementation bureaus and departments/
agencies, indeed, it serves to ensure all capabilities are brought to 
the table, integrated and made available immediately to support foreign 
policy goals of the Secretary.
    Long-term capacity development for surge operations will require 
continued congressional support for the involvement of partner agencies 
and for the baseline steady state staffing of State and USAID.

    Question. The Office of the Inspector General for State Department, 
the Office of Inspector General for USAID, and other agency IG provide 
ongoing essential oversight of their respective agency programs and 
projects upon which the respective agencies and Congress greatly rely. 
Although Afghanistan and Iraq present massive cross-agency programming, 
the resident tools and authorities of standing IG offices are capable 
of incorporating the necessary means to meet expectations in such 
circumstances.

  <bullet> What role do you see for the IGs at the State Department and 
        USAID in promoting the effectiveness of your office's programs 
        with regard to Pakistan and Afghanistan?

    Answer. The State Department OIG has increased, and is planning a 
further increase in, oversight activities in Pakistan and Afghanistan. 
OIG is currently engaged in a number of reviews relevant to South Asia 
stabilization and to other department programs now underway in the 
South Central Asia region. State OIG is primarily responsible for 
oversight of State Department programs in Afghanistan and Pakistan and 
coordinates regularly with USAID OIG, the DOD OIG and the Special IG 
for Afghanistan Reconstruction for all aspects of oversight work in 
South Central Asia. The newly created Pak-Af Sub-working Group, formed 
by all of the relevant inspectors general working in the region, 
facilitates this effort.

    Question. What recommendations do you have with regard to 
strengthening existing inspector general offices? Would you support 
providing additional authorities to State and USAID IG offices?

    Answer. We urge the Congress to fund State Department OIG's current 
request in the FY 2009 supplemental bill and the FY 2010 appropriations 
request, both of which contain requests for additional oversight 
funding in South Central Asia. We also support the State Department 
OIG's request to the authorizing committees for additional hiring 
authorities which provide flexibility in the hiring of onsite oversight 
personnel in the South Central Asia. Finally, while we know State OIG 
has been conducting oversight in Afghanistan and Pakistan, we strongly 
support the September 2009 planned opening of the State OIG field 
office in Kabul and support their current effort to open a field office 
in Islamabad in the near future.

                           OPERATING EXPENSES

    Question. S. 962 seeks to ensure that the executive branch will 
have the resources necessary to implement the expanded foreign 
assistance programs for Pakistan provided for in the bill. To this end, 
the bill authorizes $10 million to be made available for administrative 
expenses of federal departments and agencies in connection with the 
provision of assistance authorized by the bill. This $10 million would 
be in addition to other amounts already available to implement such 
assistance programs through the existing operating budgets of the 
Department of State, USAID, and other relevant agencies.

  <bullet> What amount(s) are available from existing resources to 
        implement and administer the programs authorized by S. 962? 
        Does the administration believe that the $10 million authorized 
        will be sufficient to cover any additional administrative 
        expenses it anticipates incurring to implement the expanded 
        foreign assistance programs to Pakistan provided for in S. 962?

    Answer. Funds appropriated for FY 2009 Operating Expenses, via the 
Omnibus Appropriations Act and pending supplemental legislation, will 
cover current funding gaps. We plan to implement and administer the 
programs authorized by S. 962 using funds appropriated for FY 2010.
    The best way to ensure that the Department of State and Mission 
Pakistan will have the resources for administering and implementing 
Foreign Assistance programs would be for Congress to enact the Pakistan 
FY 2010 request of $76.2 million for State operating expenses and the 
request of $30.8 million for USAID operating expenses for Pakistan. We 
hope that Congress will also move expeditiously to approve the FY 2009 
supplemental including the requested amounts for State and USAID 
operating expenses, as well as $806.2 million requested by State for 
secure and upgraded facilities, all of which will enhance the capacity 
of our diplomatic and development efforts in Pakistan.
    That said, the authorization to use up to $10 million of Foreign 
Assistance annually to cover unexpected or incremental administrative 
costs associated with S. 962 would seem sufficient.

    Question. If the administration believes that additional resources 
are needed beyond this extra $10 million, please identify the 
additional costs the administration expects to incur and indicate how 
much additional money the administration believes is needed to meet 
them.

    Answer. At this time we believe that the amounts requested in the 
President's FY09 supplemental and FY10 request are sufficient to meet 
our needs, but will consult closely with Congress if additional needs 
are identified by our Embassy teams in Kabul and Islamabad.

    Question. Please explain in detail the nature of any such costs, 
why they are required, and why they cannot be met through the existing 
operating budgets of relevant federal agencies.

    Answer. At this time we do not anticipate requiring additional 
resources beyond those amounts requested in the FY09 supplemental and 
FY10 request, but will consult closely with Congress if additional 
needs are identified by our Embassy teams in Kabul and Islamabad.

           PAKISTAN COUNTER-INSURGENCY CAPABILITY FUND (PCCF)

    Question. The President requested $400 million in the supplemental 
appropriations request for the purposes of immediately supplying an 
effort to train and equip Pakistani security services for 
counterterrorism and counterinsurgency operations.

  <bullet> What agreements have been made with the Pakistan Government, 
        and specifically with the military and security services, with 
        regard to PCCF funding?

    Answer. No formal agreements have been made with Pakistan about the 
PCCF since it has not yet been approved by Congress. Embassy Islamabad 
and U.S. Central Command have spoken with senior Pakistani officials 
about building Pakistan's counterinsurgency capabilities, as well as 
how the specific equipment/training that PCCF (if enacted) is intended 
to provide could be used to assist in current operations.

    Question. What specific forces and what command and control 
structures will benefit from this program?

    Answer. PCCF is intended to build the counterinsurgency 
capabilities of Pakistani security forces currently engaged in 
operations against extremists along their border with Afghanistan. It 
is implicit in the concept of PCCF that it remain flexible enough so 
the Combatant Commander--General Petraeus--can adapt our security 
assistance to changing circumstances, but at present we envision that 
the main entities that will benefit from PCCF will include: The regular 
forces of the Pakistan Army (including 11th Corps and 12th Corps); 
special forces of the Pakistan Army (including the Special Services 
Group commandos and their air-lift unit, the 21st Quick Reaction 
Squadron); Pakistan Army Aviation (including the helicopter units that 
fly Mi-17s, Bell-412s and Cobras); the paramilitary Frontier Corps; and 
other enabling units. Other entities will be considered on a case-by-
case basis depending on the role that they play in meeting overall 
counterinsurgency objectives.

    Question. Secretary Gates and Secretary Clinton testified to the 
Appropriations Committee in April that the PCCF program would initially 
fall within DOD and move in a phased process over 2 years to State 
Department authority and control.

  <bullet> What are the deficient elements of the current security 
        assistance programs currently at State Department?
  <bullet> How will the State Department develop the structures and 
        capacity to manage this program?
  <bullet> How will the State Department participate in the 
        implementation of this program and in the administrative and 
        review process associated with it in order to build the 
        necessary capacity?

    Answer. The Pakistan Counterinsurgency Capabilities Fund (PCCF) was 
requested as a Department of Defense authority to address the 
exceptional situation in Pakistan where there is an urgent need to 
allow the Combatant Commander to provide Pakistan with accelerated and 
enhanced counterinsurgency operational capabilities. The new fund 
provides for significant State Department input into implementation by 
requiring Secretary of State concurrence of DOD's provision of 
assistance, and of DOD's transfer of funds to other agencies to provide 
assistance. As the Chief of Mission, the U.S. Ambassador to Pakistan 
provides strategic direction to, and oversight of, the Office of the 
Defense Representative in Pakistan for all of its efforts, including 
the PCCF. Embassy Islamabad is also structured to manage both the PCCG 
and Foreign Military Financing (FMF)--which will continue to be 
administered by the Department of State--to maximize the impact of U.S. 
military assistance in support of our policy objective of stabilizing 
Pakistan.
    The State Department is currently undertaking a broad, strategic 
review of foreign assistance resources (including security assistance 
programs) in order to strengthen its ability to manage and coordinate 
programs, and improve the coherence and integration of our foreign aid 
programs to achieve unity of effort within the U.S. Government. Part of 
this review will include an examination of the appropriate balance of 
authorities vested between the Defense and State Departments, as well 
as the personnel and resources needed to execute these programs.
                 regional and international engagement
    Question. The committee recognizes your efforts to encourage 
cooperation and participation of other countries in providing support 
for Pakistan and the region in a more responsible and coordinated 
manner.

  <bullet> What other donor nations or organizations whose assistance 
        and potential are you most encouraged by?

    Answer. Fostering international dialogue and coordinating and 
integrating international assistance are critical components of the 
President's Afghanistan/Pakistan strategy. Our regional and 
international engagement furthers several objectives.
    First, we seek to vastly improve coordination and integration of 
international assistance flowing to both Pakistan and Afghanistan. On 
Pakistan we are seeking to increase donations for urgent humanitarian 
needs and to begin a coordinated international dialogue on longer term 
reconstruction. On Afghanistan, we are working with the international 
donor community, increasingly under the auspices of UNAMA, to create a 
common assistance framework that can guide and integrate all donors' 
assistance to Afghanistan. We are also developing a comprehensive 
inventory of all donors' assistance to Afghanistan in anticipation of 
supporting UNAMA and the Minister of Finance in its efforts to map all 
foreign assistance.
    The second element of regional and international engagement 
involves developing and strengthening strategic partnerships with the 
large number of regional and global stakeholders in a stable and secure 
Pakistan. Many of these partners share longstanding historical, 
political, and economic ties with Pakistan and recognize that a stable, 
secure, and democratic Pakistan is vital to our shared national 
interests. By harnessing the capabilities of these current and future 
partners, we will greatly increase our ability to address security, 
governance, and development goals in Pakistan coherently and 
comprehensively.

    Question. Your travel to the region has included a number of trips 
to India as well. Notwithstanding your deferring comment at the 
hearing, how will the U.S. Government ensure India is properly engaged 
on the issue of improving relations with Pakistan? What steps does the 
administration feel India might make to diminish the perceived threat 
to Pakistan?

    Answer. India plays a critical role in the region and we will 
continue to inform and consult the Indian Government on a regular basis 
to ensure that they are properly engaged on the issues. We will not be 
able to address regional challenges without India's full involvement. 
India is vitally affected by events in the region, and we want to 
consult closely with New Delhi as we go forward. The national security 
of India, Pakistan, and the United States is clearly at stake as all 
three countries now face a common threat from violent extremism.

             PUBLIC DIPLOMACY AND STRATEGIC COMMUNICATIONS

    Question. Our legislation provides a requirement for a 
comprehensive strategy to implement effective counterterrorism and 
counterinsurgency measures along the Pakistan-Afghanistan border areas 
that includes elements relating to the use of strategic communications.

  <bullet> What are the parameters of the strategy for such an element 
        of the assistance effort in Pakistan? What agencies will be 
        involved in designing and implementing such an effort?

    Answer. Under Special Representative Holbrooke's and General 
Pertaeus' leadership, we are implementing a new integrated civilian-
military strategic communications effort in Afghanistan and Pakistan. 
This effort will focus on three simultaneous goals: Redefining our 
message; connecting to the people on the ground through cell phones, 
radio, and other means; and identifying and supporting key 
communicators who are able, through local narratives, to counter 
extremists' propaganda and present a positive alternative. Additional 
personnel and structures in Kabul and the Afghan provinces and in 
Islamabad/Peshawar will be necessary to implement this new program and 
Special Representative Holbrooke is working with our Embassies in Kabul 
and Islamabad to identify and address these needs.
    Mobile phones are a vital tool for counterinsurgency and a mobile-
equipped population is one that can be more effectively engaged and 
empowered to circumvent and challenge the militants. In the Federally 
Administered Tribal Areas (FATA), we will push for greater cell phone 
penetration throughout the different agencies.
    Radio is also a particularly effective means of reaching tribal 
populations because it is the most pervasive media. We will work to: 
(1) Expand radio production capacity through expanded training, and on-
the-job mentoring programs for local radio staff members; (2) support 
locally developed, cross-border radio programming; ( 3) expand our 
efforts to help develop community-based radio stations; (4) establish 
public-private partnerships; and (5) develop programming that fosters 
interaction and participation.
    Broad interagency participation will be key to developing and 
implementing our new communications strategy. In April, Special 
Representative Holbrooke's office cohosted with DOD an interagency 
meeting attended by over 50 representatives from State, DOD, USAID, and 
the Intelligence Community, to discuss current strategic communication 
activities within Afghanistan and Pakistan, and the urgent need for a 
comprehensive and coordinated strategic communications plan for the 
region. We are also consulting with experts and engaging the private 
sector to develop new ideas. We have requested resources in support of 
our strategic communications efforts in the FY 2009 supplemental and FY 
2010 budget and will remain in close consultation with Congress as we 
further define this effort.

    Question. What has the Government of Pakistan agreed to with regard 
to our efforts to operate in the area of strategic communications?

    Answer. Our strategic communications activities support Pakistani 
Government. This has included training programs to improve Pakistani 
Government communications capabilities, a media cell to support its 
Special Support Group for helping internal refugees, and development of 
an antiextremism media campaign. Most importantly, however, is our 
assistance to help the Pakistani Government empower local people to 
communicate messages that compete with extremist narratives. These have 
already included student radio programs, support for establishing radio 
stations in contested areas, and support for content produced by locals 
for broadcast. Going forward, we will seek greater collaboration with 
the Pakistani Government in implementing programs and in building its 
strategic communications capacity.

    Question. Where will authority for such operations reside?

    Answer. Authority for such operations will reside with Embassy 
Islamabad in the field and with the Secretary of State and me in 
Washington.

    Question. What will be the role of the Broadcasting Board of 
Governors, Voice of America, Radio Free Europe/Radio Liberty?

    Answer. The Broadcasting Board of Governors plays a vital role. The 
Voice of America (VOA) and Radio Free Europe/Radio Liberty (RFE/RL) 
reach 10 million people weekly in Afghanistan and VOA reaches 11 
million weekly in Pakistan. Research in the Afghan-Pakistan border 
region is very difficult, but according to available qualitative and 
quantitative research, VOA's Pashto-language Radio Deewa reaches 
sizable audiences in the FATA and NWFP. In the mix of U.S. 
communication initiatives, BBG's reliable news and information programs 
are vital to U.S. security interests, especially in tribal areas where 
Taliban propaganda is pervasive.
    VOA in Pakistan broadcasts over AM transmitters and shortwave (SW) 
frequencies as well as on the Internet. FM broadcasts via a leased 
network of FM transmitters in Pakistan awaits ratification of a lease 
agreement by the Government of Pakistan. Use of an AM transmitter in 
Peshawar is pending ratification of a lease agreement by the Cabinet of 
Pakistan's President.
    Transmitters based in Afghanistan also serve Pakistan. VOA has 
expanded from 6 to 9 hours of live programming daily via SW and three 
FM transmitters (in Khost, Asadabad, and Gardez), and on the Internet. 
A new, high-power AM transmitter in Khost, Afghanistan, is ready to 
come online pending resolution of final wording in agreements with the 
Afghan Government.
    Under provisions of the pending FY 2009 supplemental request, 
funding would be available to further expand broadcasts in Pashto by 
VOA and Radio Free Europe/Radio Liberty. The two broadcasters would 
share frequencies and produce complementary programming, as they do in 
a joint programming stream now in Afghanistan. They would share a new 
bureau in Peshawar.
    The single greatest challenge at this time is securing new delivery 
of programs on AM and FM to the border region and throughout Pakistan.
                                 ______
                                 

    Responses of Ambassador Richard Holbrooke to Questions Submitted
                    by Senator Robert P. Casey, Jr.

    Question. As civilians flee the Pakistani Army offensive in the 
Swat Valley against Taliban extremists, the seeds of a future crisis 
are being planted. Since Thursday alone, 200,000 refugees are estimated 
to have poured into four camps set up by the United Nations and the 
local administrations of the city of Mardan. As many as 600,000 
additional refugees are expected to arrive if fighting continues. The 
effects of the crisis are somewhat mitigated as families in Mardan and 
surrounding area take in some of the refugees into their homes and 
guesthouses--an extension of traditional Pashtun hospitality. But at a 
certain point this hospitality will reach its limits.

  <bullet> How is the United States Government working with the 
        government of Pakistan and international organizations to 
        address the potentially catastrophic effects of a large-scale 
        refugee crisis inside Pakistan? We all recognize the potential 
        for alienation and extremism that can arise when refugee 
        populations endure for extended time periods.

    Answer. As of June 18, Pakistan had verified 1.9 million displaced 
persons whom UNHCR had registered. The number is expected to grow to 
2.5 million as people flee expected fighting in Waziristan and as more 
displaced persons are verified outside of the North West Frontier 
Province. UNHCR has raised its planning figure from 1.5 million 
displaced people (assumed in the U.N.'s May 19 Pakistan appeal) to 2.5 
million. The U.S. Government has responded since early May by 
committing over $300 million to relief and reconstruction efforts and 
by mobilizing an international response. Secretary Clinton and I have 
personally rallied the international community, most recently in Europe 
and the gulf, to provide assistance to relieve the suffering of those 
displaced in Pakistan.
    Our assistance has brought food and nonfood items such as medical 
care, water, and sanitation to the internally displaced living in camps 
and host communities. On May 15, USAID deployed a Disaster Assistance 
Response Team (DART) to Pakistan to support relief efforts, manage the 
humanitarian response, and coordinate with the humanitarian community. 
To support the return of those displaced, the Government of Pakistan is 
offering one-time cash payments of $310 to each registered family. We 
will continue to work with U.N. agencies, nongovernmental organizations 
and the Government of Pakistan to provide humanitarian relief to those 
displaced and to enable their return as quickly and safely as possible 
so that they can begin the hard work of rebuilding their lives.

  <bullet> Does the administration foresee the need for additional 
        assistance in the FY 2009 supplemental bill that is working its 
        way through the Congress to address this challenge?

    Answer. The administration requested an additional $200 million in 
the FY 2009 supplemental for displaced persons in Pakistan.

    Question. In yesterday's Washington Post, Selig Harrison, an author 
and former journalist who is an expert on South Asia, wrote an op-ed 
contending that U.S. policymakers are misapprehending the conflict in 
Pakistan. Rather than viewing it as a conflict between moderates and 
religious extremists, Harrison argues what is happening today in the 
FATA and other border regions of Pakistan reflects the age-old struggle 
between the Pashtuns of Afghanistan and western Pakistan vs. the 
Punjabi elites of eastern Pakistan. The FATA and other regions along 
the border, including the North West Frontier Province and Baluchistan, 
have always enjoyed a degree of autonomy from central rule in Islamabad 
to account for the ethnic split.
    Harrison thus argues that U.S. policy urging the Pakistan military 
to go into the Swat Valley and the broader regions with an all-out 
military assault is a prescription for disaster--it will only 
antagonize the ethnic strife between Pashtuns and Punjabis and bolster 
the rise of local Taliban extremists. Harrison urges the Obama 
administration to cease airstrikes in western Pakistan and instead 
encourage Islamabad to offer greater regional autonomy to these areas, 
thus providing an incentive for local Taliban to eject al-Qaeda figures 
and focus on their own regional development, as opposed to laying the 
seeds for a broader anti-Pakistani and anti-Western crusade.

  <bullet> What do you make of Harrison's argument? Does current United 
        States policy risk exacerbating ethnic tensions in Pakistan 
        between Pashtuns and Punjabis?

    Answer. We disagree with Harrison's premise that U.S. policy 
exacerbates ethnic tensions in Pakistan. The United States supports 
Pakistani military operations in the Swat Valley and other border 
regions as a critical step toward our strategic goal of disrupting, 
dismantling, and defeating al-Qaeda in Pakistan. Pakistan and the 
United States face a common enemy, and military operations targeting 
violent extremists within its borders will demonstrate Pakistan's 
commitment to addressing the urgent security threat posed by extremist 
safe havens in Pakistan. Successfully neutralizing safe havens for 
extremists will require sustained counterinsurgency operations, 
followed by coordinated ``hold and build efforts.'' It is also critical 
to note that the Pakistani security operations under way in the North 
West Frontier Province enjoy unprecedented national support across 
almost all political parties, including the main opposition parties.
    We are urging Pakistani civilian and military leaders to develop a 
coordinated counterinsurgency strategy, which includes military 
operations followed by dedicated efforts to reach out to the local 
population and reestablish connections with the central government. The 
idea is to erase the perceived vacuum in which the extremists have been 
operating, so that they do not return once military operations have 
ended. It is critical that the current military operations in the North 
West Frontier Province (NWFP) and the Federally Administered Tribal 
Areas (FATA) be followed by reestablishment of civilian security 
structures, and a major effort to return those who have been displaced, 
as well as help to reconstruct their homes and towns, as quickly as is 
feasible. We will support international organizations, such as the 
Asian Development Bank, World Bank, and the U.N.'s OCHA, to conduct 
damage assessments and compile cost estimates. Already Pakistani 
civilians are returning to some areas including Lower Buner and Lower 
Dir, and the UNHCR will assist others to return by providing 
transportation and supplies of some basic needs.
    We understand that ethnic strife has long been a problem in 
Pakistan--and that some groups continue to feel neglected, with the 
perception that others are more advantaged. We must work with the 
Pakistani leadership to ensure that the Pakistani Government provides 
security, economic stability and opportunity, and basic services for 
all Pakistani citizens. Through our bilateral assistance (security and 
nonsecurity), training, efforts to pass Reconstruction Opportunity Zone 
legislation, and engagement with Pakistani leaders across the political 
spectrum, we are endeavoring to assist our Pakistani partners toward 
those ends.
    Initiatives like Reconstruction Opportunity Zones (ROZs), now 
pending in Congress, can provide incentives for the reconstruction and 
bring badly needed jobs in some of Pakistan's most vulnerable regions. 
We urge Congress to pass ROZ legislation very soon to help foster 
legitimate economic opportunity in an area where lack of positive 
alternatives has resulted in young men turning to illicit, 
destabilizing activities. We are also continuing to encourage other 
countries to come together to support Pakistan, as they did at the 
successful April 17 donors' conference in Tokyo that raised over $5 
billion in social safety net and development assistance. The stronger 
the Pakistani Government is, the stronger its capability to establish 
its writ in traditionally underserved parts of Pakistan, like the 
Federally Administered Tribal Areas.
                                 ______
                                 

    Responses of Ambassador Richard Holbrooke to Questions Submitted
                         by Senator Jim DeMint

    Question. The Millennium Challenge Corporation tracks 17 policy 
indicators and USAID uses 5 strategic goals and a series of 
subcomponents as performance indicators and ratings. Unfortunately, 
just using MCC's assessments, Pakistan has retreated on a number of key 
indicators. Please identify the specific metrics you intend to use in 
order to gauge success with the assistance provided to Pakistan under 
S. 962.

    Answer. Finding the correct metrics to assess effectiveness is a 
vital element of policy implementation. Since the recent completion of 
the administration's Strategic Review of U.S. policy on Afghanistan and 
Pakistan, there has been an interagency effort to develop specific 
plans for implementation, including the preparation of metrics and 
conditions.
    The U.S. Government is moving forward urgently, but also 
deliberately. The administration requires a reasonable amount of time 
to assemble its team, get the appropriate people on the ground, assess 
the situation, and develop meaningful measures of effectiveness. The 
administration is seeking input from across government to reflect the 
interagency dimension--the Department of State, U.S. Agency for 
International Development, and the Departments of Defense, Justice, 
Commerce, Agriculture, to name a few. We also look forward to working 
with Congress on these measures.

    Question. For roughly 10 years, United States sanctions suspended 
IMET funding for Pakistan. However, in our current relations with 
Pakistan we have relied on friendships that were established when 
Pakistan's future leaders were able to attend military schools in the 
United States. In order to confront al-Qeada and eliminate its ability 
to operate internationally, the United States must rely on the 
Pakistani military and intelligence services. How do you believe we 
should move forward with instilling American values and perspectives 
and rebuilding relationships with the Pakistani military? What role 
should IMET training play?

    Answer. The International Military Education and Training (IMET) 
program is a critical element of our broad-based security relationships 
throughout the world. In addition to the high quality of the education 
and training the program provides for foreign military and civilian 
members, IMET also plays a vital role in the development of military-
to-military relationships. IMET helps ensure that other nations' 
militaries have a cadre of personnel that have trained in the United 
States and are familiar with U.S. military doctrine, methods, and 
values. This has proven extremely useful over the years in forging 
strong military-to-military relationships and promoting key U.S. values 
such as human rights and civilian control of the military.
    We are currently paying the price for the decade of sanctions 
against the Pakistani military under the Pressler amendment. During the 
1990s, a generation of Pakistani military officers, who now hold senior 
leadership positions, were denied U.S. military education and training 
opportunities as well as the exposure to United States culture and 
values that such activities provide. A robust IMET program with the 
Pakistani military is one of the best tools we have to help shift the 
direction of the Pakistani military to a more pro-Western orientation 
in both outlook and doctrine, and to help reshape our bilateral 
security relationship. It is for this reason that the administration 
has almost doubled last year's requested amount for IMET funding for 
Pakistan.

    Question. Going forward do you support, and will you commit to, 
providing a full and detailed list of all U.S. assistance to Pakistan--
not just what may be authorized under S. 962--including a description 
of each program or project that receives any U.S. funding?

    Answer. I will provide a full and detailed list of all U.S. 
assistance to Pakistan, including a description of each program and 
project receiving U.S. funding.

    Question. After taking appropriate measures to ensure national 
security, are you willing to provide this information in a readily 
accessible format on the Internet?

    Answer. We would be happy to provide such a list available in a 
readily accessible format. We would, of course, be required to make 
certain exceptions to protect national security and to ensure the 
safety and security of assistance recipients and program implementers. 
We would, in such instances, be glad to brief Congress on such 
programs.

                                  <all>

</pre></body></html>
